<html>
<title> - CONTRIBUTIONS OF SPACE TO NATIONAL IMPERATIVES</title>
<body><pre>[Senate Hearing 112-501]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-501

                        CONTRIBUTIONS OF SPACE 
                        TO NATIONAL IMPERATIVES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON SCIENCE AND SPACE

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 18, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>








                  U.S. GOVERNMENT PRINTING OFFICE

75-567 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
   Brian M. Hendricks, Republican Staff Director and General Counsel
            Todd Bertoson, Republican Deputy Staff Director
                Rebecca Seidel, Republican Chief Counsel
                                 ------                                

                   SUBCOMMITTEE ON SCIENCE AND SPACE

BILL NELSON, Florida, Chairman       JOHN BOOZMAN, Arkansas, Ranking
DANIEL K. INOUYE, Hawaii             ROGER F. WICKER, Mississippi
JOHN F. KERRY, Massachusetts         MARCO RUBIO, Florida
MARIA CANTWELL, Washington           KELLY AYOTTE, New Hampshire
MARK PRYOR, Arkansas
MARK WARNER, Virginia



















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 18, 2011.....................................     1
Statement of Senator Nelson......................................     1
Statement of Senator Hutchison...................................     3
Statement of Senator Boozman.....................................     4
Statement of Senator Rubio.......................................     5

                               Witnesses

Christopher F. Chyba, Ph.D., Professor of Astrophysical Sciences 
  and International Affairs and Director, Program on Science and 
  Global Security, Princeton University..........................     6
    Prepared statement...........................................     8
Frank L. Culbertson, Jr. (Captain, USN, Ret.) Commander, 
  International Space Station Expedition 3.......................    13
    Prepared statement...........................................    17
Elliot Holokauahi Pulham, Chief Executive Officer, the Space 
  Foundation.....................................................    20
    Prepared statement...........................................    22
Frank Slazer, Vice President, Space, Aerospace Industries 
  Association....................................................    26
    Prepared statement...........................................    28

                                Appendix

Hon. John D. Rockefeller IV, U.S. Senator from West Virginia, 
  prepared statement.............................................    49
Response to written questions submitted to Christopher F. Chyba, 
  Ph.D. by:
    Hon. Kay Bailey Hutchison....................................    49
    Hon. John Boozman............................................    51
Response to written questions submitted by Hon. Kay Bailey 
  Hutchison to:
    Frank L. Culbertson, Jr......................................    51
    Elliot Holokauahi Pulham.....................................    52
Response to written questions submitted by Hon. John Boozman to 
  Elliot Holokauahi Pulham.......................................    54
Response to written questions submitted to Frank Slazer by:
    Hon. Kay Bailey Hutchison....................................    56
    Hon. John Boozman............................................    57

 
                        CONTRIBUTIONS OF SPACE 
                        TO NATIONAL IMPERATIVES

                              ----------                              


                        WEDNESDAY, MAY 18, 2011

                               U.S. Senate,
                 Subcommittee on Science and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:36 a.m., in 
room SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good morning.
    Just a couple of weeks ago, we celebrated the fiftieth 
anniversary of human space flight and the first flight into 
suborbit by Alan Shepard. And then the President's bold 
statement to go to the Moon within the decade, and that was 
within 9 years. And that was announced just 3 weeks later.
    I remember years ago, when I was a young Congressman, one 
day I was on the floor of the House, and the Speaker, Tip 
O'Neill, saw me, and he motioned me over to sit down with him. 
He knew of my participation in the space program, and he says, 
``Billy, let me tell you.'' He says, ``One of the times I was a 
young Congressman from Boston and I was down at the White 
House,'' and he said, ``I had never seen President Kennedy so 
nervous.'' He said, ``He was just pacing back and forth like a 
cat on a hot tin roof.''
    And he says, ``I called over some of his White House aides, 
and I said, `What is wrong with the President?' '' And they 
explained to Tip that we were getting ready to launch Alan 
Shepard on a Redstone rocket. The Soviets had surprised us 
weeks earlier by putting Gagarin in orbit, and here we were on 
a rocket that didn't have enough throw weight, save to get that 
Mercury capsule up into suborbit, and the whole prestige of the 
United States was on the line.
    And of course, the rest is history. Alan Shepard flew. Then 
Gus Grissom flew, even though his capsule sank in the Atlantic, 
and he had to swim for it.
    In the meantime, the Soviets put up Titov, a second orbital 
flight. And then, 10 months later, here we put that Mercury 
capsule on top of an Atlas rocket, and John Glenn climbed in, 
knowing that it had a 20 percent chance of catastrophe. And 
then, of course, the rest is history.
    These successes in space have become an expression of our 
technical prowess, announcing to the rest of the world just how 
capable we can be and how the spirit in this country, this can-
do spirit can overcome extraordinary obstacles.
    Well, we have enjoyed a steady stream of benefits that have 
come from the concentrated investments in enabling the 
technology and producing space applications--basic research, 
human exploration, Earth observation, national defense--just a 
few of those that have resulted from us being a leader in the 
global space economy. And as a result, the spinoffs have 
improved the livelihoods of all of us earthlings.
    The technologies spawned over the last 50 years have 
changed the way we live. Space-based technologies have become 
pervasive to the point that many times we don't even realize we 
are relying on them. And I am just astounded over and over that 
people say, well, NASA needs to advertise more what it does. 
Well, NASA does. Every year they put out a book of spinoffs.
    And you think about this book being put out for several 
decades, just how many of those technologies that have spun off 
have added up. Not only GPS, but look at the data for NOAA and 
what that has done for weather and prediction of storms. Look 
at the NASA satellites that complement the Earth-based 
observations on not only weather, but climate change.
    The space assets have changed the way we defend this 
nation, and they have been integrated into nearly every aspect 
of the U.S. military as well as the intelligence operations 
that now we see the fruits of in blending the intelligence 
community with a surgical military operation. And these 
benefits, along with the numerous spinoffs and the efficiencies 
gained through the application of space technology, have 
provided this nation with a significant return on investment.
    Now, we have gathered up some high-powered folks here to 
talk about the importance of space activities and the 
contributions of these undertakings to our national priorities. 
Frank Culbertson, a retired astronaut; captain, U.S. Navy 
retired. He is a veteran of three space flights and served as 
the commander of the International Space Station during 
Expedition 3.
    By the way, that is another thing. I am just amazed, Frank, 
when you talk to people, somehow they have gotten the 
impression that the space program is being shut down. We have 
got a Space Station up there that has six astronauts on it. And 
when the Space Shuttle docks, it is going to have a lot more 
astronauts on it.
    Captain Culbertson. Twelve now.
    Senator Nelson. And it is 120 yards long. You think looking 
in the stands of a football stadium down at the field, from one 
end of the end zone to the other is how big the International 
Space Station is. And so, we are looking forward to you sharing 
your experience of logging 146 days in space.
    Frank Slazer, Vice President of Space Systems, Aerospace 
Industries Association. This organization was founded in 1919. 
It is a leading trade association representing aerospace and 
defense manufacturers.
    Elliot Pulham, Chief Executive Officer of the Space 
Foundation since 2001. He leads a team providing services to 
educate and inform Government officials, industry, news media, 
and students about the space industry around the world.
    And Dr. Chris Chyba, Professor of Astrophysical Sciences 
and International Affairs at Princeton, where he directs the 
Program on Science and Global Security. He was a member of the 
Review of the U.S. Human Space Flight Plans Committee, also 
known as the Augustine Committee, and is now a member of the 
President's Council of Advisers on Science and Technology 
(PCAST).
    So I want to welcome all of you. We are delighted that you 
are here. We want to get out on the record your thoughts on 
what we can do for the future. We have a lot of penetrating 
questions.
    I want to turn to our ranking member, Senator Boozman. And 
then, of course, I want to turn to our colleague, the ranking 
member of the full committee, Senator Hutchison.
    Senator Boozman. With your permission, I will go ahead and 
yield to my Ranking Member.
    Senator Nelson. Of course.
    Well, while we are waiting on Kay to approach the 
microphone, I just want to say the successes that we have had 
in the NASA bill being passed last year, as well as a lot of 
the funding that has now implemented the NASA authorization 
bill, this lady, this young lady is responsible for a lot of 
that.
    So thank you.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, Mr. Chairman, I thank you. We have 
worked very hard to try to move NASA forward, and I think that 
the authorization bill that brought together the need for the 
commercial investment and the commercial opportunity, along 
with the use of our workforce that has the experience of so 
many years in building the rockets and the launchers, that 
together we believe that we have a good way forward.
    And what I hope we can hear from you today is that we need 
to adhere to the authorization strategy and that that is the 
way that we should be proceeding. I think the Chairman and I 
and Senator Boozman and Senator Rockefeller are all very 
concerned about how slow everything seems to be moving.
    And in about a couple of months, we are going to be relying 
on the Russians to take Americans into space. And we have one 
more Shuttle that will be going up this summer. But after that, 
we are looking at maybe 10 years, if we don't really start 
focusing on this and making better progress, of Russian taxiing 
our astronauts to the Space Station, where we must use the 
opportunity for the unique research in that Space Station if we 
are going to reap the benefits from the investment that we have 
made.
    So I am hoping that we can hear from those of you who do 
have expertise in this area on how we can move more 
expeditiously and assure that we get our vehicle up and running 
sooner rather than later and, second, to fully utilize the 
Space Station and the research capabilities that it has.
    And we have astronauts in space right now, and we are all 
just wishing them well. We are very excited. It was really this 
committee that first heard from Dr. Ting about the spectrometer 
and the ability to use that for the study of dark energy, the 
study of the dark matter and the cosmic rays, possibly even for 
future energy resources, and that excited this committee.
    And now, because of the work of many of us on the 
Committee, including, of course, the Chairman, we are going to 
see that spectrometer be a part of the Space Station. And so, 
now we just need to make sure that we can get our astronauts 
there and on our own ticket, I hope, very soon. And we are 
going to look to you all to help us figure out how we can move 
it a little more quickly than it is moving right now.
    Thank you very much, Mr. Chairman.
    And I do want to also thank Senator Boozman for jumping in 
on this subcommittee, and he has just been the greatest 
advocate and quick study. And he is enthusiastic, and we really 
appreciate you being on the Committee and all you are bringing 
to it.
    Thank you.
    Senator Nelson. Senator Boozman?

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Well, thank you. And I appreciate the 
opportunity to be part of the Subcommittee and to help us move 
forward.
    The Chairman and I were at a meeting this morning, and one 
of the emphasis at the meeting was that we needed to work 
together. And I think the relationship that you and--Mr. 
Chairman--the Ranking Member, Senator Rockefeller, have had in 
regard with this issue is a great example of that. And this is 
something that we all agree is so important to our country.
    So I really appreciate you, Mr. Chairman, for holding the 
hearing today to help further inform the subcommittee and the 
record on the importance of our nation's participation in the 
global space economy and the tenuous hold that we may have on 
our position of leadership in that realm.
    I am grateful that the Ranking Member of the full 
Committee, Senator Hutchison, is with us today. Her 
longstanding dedication and commitment to the Nation's space 
program is both an example and an inspiration to me, as I 
settle into the work of this subcommittee as its Ranking 
Member.
    I also want to acknowledge the successful launch on Monday 
of the Shuttle mission commanded by Mark Kelly. I wish the 
entire crew of the Shuttle and those already aboard the Space 
Station success in carrying out this very important mission to 
expand the scientific capability of this unique national 
laboratory and provide essential spare and replacement parts 
and other supplies to ensure the health and vitality of the 
Space Station systems.
    I had the pleasure of going to the Kennedy Space Center at 
the end of last month for the planned launch of the mission. 
Unfortunately, the electrical problems with the auxiliary power 
unit prevented that launch attempt. So I was unable to see the 
launch.
    But my experience during that visit was very meaningful. 
Not only was I able to see and talk with some remarkable 
skilled and dedicated workforce, but I was able to see 
firsthand some of the facilities and features of our Nation's 
and the world's premier spaceport.
    I also was able to sense the spirit and dedication of the 
workforce, as well as their strong desire to have clear 
guidance and direction from their agency's leadership, as well 
as Congress and the administration, for the future. These 
people know how to do what needs to be done to ensure this 
Nation's leadership in space, and all they need is direction 
and resources to go do it. And they need that now.
    As you know, Senator Hutchison has noted many times in 
committee we are at a crucial point of transition in our human 
space flight programs and are already slipping quickly to a 
point where our viability to develop and operate a national 
space launch system will be in doubt. We simply cannot allow 
that to happen.
    The Congress provided a clear path to move the nation away 
from that precipice in the 2010 NASA Authorization Act. It is 
past time for the provisions and requirement of that act to be 
implemented, and I strongly support the Committee's efforts to 
ensure that that is done.
    I look forward to the hearing and the witnesses and more 
about the great benefits that we receive as a nation from our 
space program, and a reminder, again, of what is at stake.
    And with that, I yield back.
    Senator Nelson. Senator Rubio, did you want to make a 
statement?

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Mr. Chairman, thank you for holding these 
hearings on America's space program. They are critically 
important.
    Thank you for the members of the panel for being here at 
such an important time, as we are nearing the last launch of 
the Shuttle program and continue to ask ourselves what the 
future of the space program is for America.
    As I reiterate everywhere I go, America's space program is 
not simply something we do for fun. It has deep commercial 
impact. It has a significant national security component. And 
it really helps across industries. I know Senator Nelson will 
tell you that in Florida, we have all kinds of industries who 
exist because of the space program. They are spinoffs of things 
we learned along the way.
    The only caveat, and I don't think we will answer that 
question today, but the only concern that I have--and it is a 
deep one I think I share with other members of the 
subcommittee--is where are we headed, literally and 
figuratively, as a program? What is our goal in the near term 
and in the long term for the program?
    Because I think this program has always functioned best 
when it knows where it is going, whom it knows where its 
destination is. Not just the place, but its purpose for 
existing. And I think the sooner we can have that question 
answered, the sooner we can fully understand what American 
space exploration is going to mean in this new century in terms 
of where we are destined to go and where we want to be, the 
easier I think it will be to move toward that goal, and I hope 
that we will make some progress on that during this year.
    But thank you for holding these hearings, and thank you to 
the members of the panel for being a part of it.
    Senator Nelson. Thank you, Senator.
    OK. I am just going to arbitrarily go by alphabetically. If 
you all could just keep your comments as much as you can to 
around 5 minutes? We want to have plenty of time to get into 
questions.
    And so, alphabetically, it would be Dr. Chyba.

    STATEMENT OF CHRISTOPHER F. CHYBA, Ph.D., PROFESSOR OF 
           ASTROPHYSICAL SCIENCES AND INTERNATIONAL 
       AFFAIRS; DIRECTOR, PROGRAM ON SCIENCE AND GLOBAL 
                 SECURITY, PRINCETON UNIVERSITY

    Dr. Chyba. Senator, I was hoping you would begin at the end 
of the alphabet.
    [Laughter.]
    Dr. Chyba. Chairman Nelson, Senator Hutchison, Senator 
Boozman, Senator Rubio, thank you for giving me the opportunity 
to testify on this important subject.
    In 2009, as Senator Nelson noted, I had the honor of 
serving on the Review of U.S. Human Spaceflight Plans 
Committee, which issued its final report in October of that 
year. The Committee formally ceased to exist on December 2009. 
So, today, I am speaking solely in my personal capacity, though 
I do wish to recall some of the Committee's most important 
findings.
    The Human Spaceflight Committee was established to review 
NASA's program of record and to offer possible alternatives. 
The Committee examined NASA's planned architecture, the 
Constellation Program, and concluded that it could not be 
executed for reasons that were primarily budgetary.
    The Committee considered a variety of alternatives. Five 
principal integrated options were evaluated against 12 metrics, 
including science knowledge, technology innovation, economic 
expansion, workforce impact, public engagement, and mission 
safety. But no architecture would provide missions beyond low-
Earth orbit until close to 2030 under the Fiscal Year 2010 
budget profile.
    But I believe that the most important contribution of our 
committee's report lies in the framework it suggested for 
thinking about human space flight. First, the report emphasized 
that the choice facing us is one of goals, not destinations. 
The debate over human space flight should not begin as an 
argument over destination, for example, should we go back to 
the Moon; or should we go to Mars? Framing the discussion this 
way risks choosing a destination and then searching for reasons 
to justify that choice.
    The Committee concluded that human spaceflight serves a 
variety of national interests. Certainly, inspiring the next 
generation, furthering national security, driving technology 
innovations, and other areas are important among these. But 
sending human beings beyond low-Earth orbit with the enormous 
expense and long timelines that that entails does not make 
contributions to these areas that are so unique or cost 
effective that they, in themselves, justify the decision to go 
beyond low-Earth orbit.
    Rather, sending humans beyond LEO has as its fundamental 
goal charting a path for human expansion into the solar system. 
This goal embraces the International Space Station as a means 
to an end, rather than a destination that we have left behind.
    Second, the report insists on scientific integrity. Human 
space flight should not be justified with exaggerated claims 
about its scientific payoff.
    We live in a time of extraordinary discoveries about space. 
We have learned that early Mars had standing liquid water on 
its surface and that the resulting sedimentary rocks, which 
could retain records of early life on Mars, are still 
accessible. We have learned that there are many other ocean 
worlds in our solar system--moons of the outer planets that 
host liquid water oceans beneath their ice covers, oceans that 
are as big as our own. We have learned that other solar systems 
are common, and we have learned that most of the mass energy of 
the universe is not made up of the kind of matter we are 
familiar with here on Earth and that we don't know quite what 
this more exotic mass energy is.
    Human spaceflight should be an ally in and certainly not a 
budgetary opponent of these momentous discoveries.
    Third, the Committee's report called for the Government 
space agency to concentrate on the hardest technical problems 
associated with our goals in space flight. For the rest, 
including sending astronauts into low-Earth orbit, the 
commercial sector should play a bigger role. The commercial 
sector should fill in behind NASA, while NASA spearheads 
exploration out into the solar system.
    And fourth, the Committee's report noted that a problem 
forever confronting NASA is that it seemingly can have either 
the budget to develop a new human spaceflight architecture or 
it can have the budget for ongoing astronaut operations, but 
not both. To afford a major new launch system, NASA has to stop 
flying.
    This is the ultimate reason for the upcoming gap in U.S. 
launch access to the International Space Station. Indeed, to 
develop Constellation, NASA had planned both to stop flying the 
Shuttle and to terminate the International Space Station in 
2016.
    The NASA Authorization Act of 2010 declares that the long-
term goal of the human space flight and exploration efforts of 
NASA shall be to expand permanent human presence beyond low-
Earth orbit. At this highest level and in many details as well, 
the 2010 Authorization Act is consistent with our committee's 
framework.
    An important objective identified by the Authorization Act 
is to ``sustain the capability for long-duration presence in 
low-Earth orbit, initially through continuation of the ISS . . 
. and through assisting and enabling an expanded commercial 
presence in, and access to, low-Earth orbit, as elements of 
low-Earth orbit infrastructure.''
    There will always be arguments over relative and absolute 
levels of funding, but the vision in the authorization bill of 
LEO becoming an economic zone sustained by Government 
activities, but with increasing commercial opportunities, 
provides our best chance of bringing costs down and creating a 
vibrant human space flight future in low-Earth orbit.
    Beyond LEO, the 2010 Authorization Act calls on NASA to 
develop a heavy-lift vehicle to preserve the Nation's core 
capabilities in space launch and to provide a final backup, 
should it be needed, for cargo or crew delivery to the ISS. We 
want to ensure that funding to maintain this core capability 
does not prevent the development of a commercial ecosystem in 
LEO that may be our best longer-term hope for a robust human 
future in space. If there is one place where new resources 
should be targeted to mitigate NASA's budget dilemma, it may be 
here.
    To conclude, 40 years later, the decade of Apollo is still 
remembered as NASA's heroic age. But the NASA of the heroic age 
was spending almost $20 billion annually in Fiscal Year 2009 
dollars on human spaceflight, not $10 billion. Evidently, we 
are not going to spend $10 billion per year more for human 
spaceflight. Our committee argued that $3 billion per year more 
could enable exploration beyond LEO on a reasonable timescale.
    Evidently, that, too, is not going to happen. And if not, 
then experience--our experience of the last four decades--
should triumph over hope--and we should embrace a model 
different from the Apollo model as we move forward.
    Thank you.
    [The prepared statement of Dr. Chyba follows:]

    Prepared Statement of Christopher F. Chyba, Ph.D., Professor of 
Astrophysical Sciences and International Affairs and Director, Program 
          on Science and Global Security, Princeton University
Introduction
    Chairman Rockefeller, Subcommittee Chairman Nelson, Ranking Member 
Boozman, members of the Subcommittee, thank you for giving me the 
opportunity to testify on this important subject. In the summer and 
fall of 2009, I had the honor and responsibility of serving on the 
Review of U.S. Human Spaceflight Plans Committee (sometimes informally 
called the ``Augustine Committee'' after its chair, Norm Augustine), 
which issued its 156-page final report in October 2009.\1\ The 
committee formally ceased to exist on December 1, 2009.\2\ Therefore my 
testimony today does not (and cannot) represent the views of the Human 
Spaceflight Committee. I am speaking solely in my personal capacity. Of 
course, my views are informed by the intensive data-gathering and 
analysis that our former committee undertook in summer 2009.
---------------------------------------------------------------------------
    \1\ Norman R. Augustine, Wanda M. Austin, Christopher Chyba, 
Charles F. Kennel, Bohdan I. Bejmuk, Edward F. Crawley, Lester L. 
Lyles, Leroy Chiao, Jeff Greason, and Sally K. Ride, Seeking a Human 
Spaceflight Program Worthy of a Great Nation, October 2009.
    \2\ Electronic mail, subject ``Committee Termination,'' from Philip 
McAlister at NASA to members of the U.S. Human Spaceflight Plans 
Committee, December 2, 2009.
---------------------------------------------------------------------------
    The testimony that follows begins by briefly reviewing our 
committee's mandate, and a few of its programmatic findings and 
options. A second section presents my own views of the most important 
characteristics of our report, those that go well beyond programmatics. 
Media accounts of the report naturally highlighted its programmatic 
options and implications, yet I believe that the report's most 
important findings are those framing an overall approach to human 
spaceflight regardless of details about launch vehicles or crew 
capsules. The final section of my testimony brings this discussion to 
bear on the situation today.
    I close this introduction with a personal remark. I am a planetary 
scientist who has been fortunate to be directly involved in the 
spacecraft exploration of the outer planets, in NASA mission planning, 
in the search for life in our Solar System, and in the scientific 
Search for Extraterrestrial Intelligence (SETI). Half of my academic 
appointment is in astrophysics; the other half is in international 
affairs and, in particular, nuclear and biological weapons 
nonproliferation and arms control. I believe that human spaceflight has 
relevance to both science and security, but I do not consider it to be 
central to either endeavor. Nonetheless, I support human spaceflight 
and favor our long-term expansion into the Solar System. One of the 
ultimate objectives of hearings like this, it seems to me, is to help 
ensure that the United States, and human civilization, has that future 
in space.
The Human Spaceflight Committee: Mandate and Programmatic Findings
    The Human Spaceflight Committee was established to review NASA's 
human spaceflight Program of Record and to offer possible alternatives. 
Its mandate was to provide options, rather than make recommendations, 
for different possible exploration architectures. This mandate did not 
include an evaluation of the value of human spaceflight vs. robotic 
exploration.
    The Committee examined NASA's existing architecture for going 
beyond low-Earth orbit--the Constellation program--and concluded that 
Constellation could not be executed at planned budget levels. The 
reasons for this were primarily budgetary. These included that 
Constellation's Exploration Systems Architecture Study (ESAS) of 2005 
assumed that human spaceflight funding would increase until reaching a 
steady state of about $10 billion per year. But the first post-ESAS 
budget, the FY 2007 budget, provided significantly lower funding for 
the Ares I rocket and the Orion crew vehicle than ESAS had anticipated. 
Pushing programs out into the future always increases costs. 
Differences between anticipated and actual budgets, plus technical 
problems in the Ares I and Orion programs, had significant impact. The 
FY 2009 budget was lower than that anticipated by ESAS by at first $1 
billion per year, and then lower with a growing disparity that reached 
$2 billion per year in the steady state. The FY 2010 President's Budget 
Submittal was lower still, anticipating a final steady state level of 
funding of about $7 billion per year--some $3 billion below the annual 
$10 billion against which ESAS had originally planned.
    Moreover, it was intended that Shuttle would complete its final 
flight in 2010, and that the International Space Station (ISS) program 
would be terminated in early 2016, with corresponding savings becoming 
available for Constellation. But the ISS termination itself was not 
budgeted. Yet termination would have to entail the safe de-orbiting of 
this 350 metric ton structure, requiring either the design, 
construction and flight of a new de-orbit module to accomplish this 
task, or the piecemeal de-orbit of the structure via disassembly.\3\ 
Taking all this into account, the Human Spaceflight Committee concluded 
that under the FY 2010 funding profile, the Constellation program would 
at the least be greatly stretched out in time. The planned heavy-lift 
vehicle (Ares V) would not be available until the late 2020s, and lunar 
return could not occur until well into the 2030s, if at all. In short, 
the Constellation program was not executable at its existing budget.
---------------------------------------------------------------------------
    \3\ The Committee requested an independent assessment of this task, 
and found projected costs of $2 billion or more, depending on the 
method of de-orbiting required. Augustine et al., Seeking a Human 
Spaceflight Program, p. 54.
---------------------------------------------------------------------------
    The Committee considered a variety of integrated scenarios: 
Constellation and variations thereof; less demanding returns to the 
Moon; and a scenario of increasing deep-space capability that it called 
``the flexible path.'' Five principal integrated options (with sub-
options) were evaluated against twelve metrics, including science 
knowledge, technology innovation, economic expansion, workforce impact, 
public engagement, and mission safety.\4\ The flexible path had the 
budget profile advantage of not requiring the simultaneous development 
of both heavy-lift capability and lunar-landing vehicles. But no 
architecture would provide missions beyond LEO until close to 2030 
under the FY 2010 budget profile.
---------------------------------------------------------------------------
    \4\ A Mars-first scenario had also been considered, but was 
evaluated to be so expensive that it did not make sense to examine it 
out to this level of detail. The five options considered (along with 
sub-variants) were a baseline case, founded on the Constellation 
program, a case in which ISS was extended and the development of Ares I 
was foregone, lunar-oriented strategies, and flexible-path strategies. 
The twelve metrics used for evaluation were exploration preparation, 
technology innovation, science knowledge, expanding and protecting 
human civilization, economic expansion, global partnerships, public 
engagement, schedule and programmatic risk, mission safety challenges, 
workforce impact, programmatic sustainability, and life-cycle cost. See 
Augustine et al., Seeking a Human Spaceflight Program, Chapter 6, 
``Program Options and Evaluation.''
---------------------------------------------------------------------------
    In historical context, this is not surprising. A plot of the human 
spaceflight annual budget (in FY 2009 dollars) through time shows a 
sustained peak during the Apollo years in the 1960s of nearly $20 
billion per year. That budget is now, and has been for nearly two 
decades, at a level of half this or less. The Committee concluded that 
sending astronauts beyond LEO in the 2020s would require ramping up to 
a steady-state augmentation of NASA's budget by some $3 billion per 
year.
Beyond Programmatics
    I believe that the most important contribution of the U.S. Human 
Spaceflight Committee report lies neither in its finding that the 
Constellation program was not executable at its existing budget, nor in 
its options for future programs, but in the framework it suggested for 
the future of human spaceflight. This framework provides the lens 
through which I view the current situation.\5\
---------------------------------------------------------------------------
    \5\ The discussion in this section draws, in part, on a McClatchy-
syndicated op-ed the author published in late November 2009. See, for 
example, Christopher Chyba, ``Report Provides Roadmap for Human Space 
Flight,'' Cleveland Plain Dealer, November 29, 2009, available at 
http://www.cleveland.com/opinion/index.ssf/2009/11/
report_provides_roadmap_for_hu.html.
---------------------------------------------------------------------------
    First, the report emphasized that the choice facing us is one of 
goals, not destinations. The debate over human space flight should not 
begin as an argument over destination--for example, ``Should we go back 
to the Moon?'' or ``Should we go to Mars?'' Framing the discussion this 
way risks choosing a destination first, then searching for reasons to 
justify that choice. At least in part, that is what went wrong with the 
International Space Station, a destination in low-Earth orbit (LEO) 
that is still searching to explain its purpose.\6\
---------------------------------------------------------------------------
    \6\ ``Because NASA does not have a compelling vision for how it 
will use the ISS, many American citizens do not have a clear idea of 
what it is for.'' Augustine et al., Seeking a Human Spaceflight 
Program, p. 56. Italics in the original.
---------------------------------------------------------------------------
    That the Station's purpose was difficult to identify is 
demonstrated, I believe, by the Constellation program's intention to 
simply terminate Station in early 2016--almost immediately after its 
completion. Dropping the ISS into the ocean upon completion suggests 
that it was viewed as no more than a gigantic white elephant. But such 
a plan makes some sense, in a disheartening way, if one's destination 
had once been the Station itself, but now one's destination has 
shifted, say, to the Moon. (Even in this context the plan is 
questionable, since the diplomatic price that would have been paid with 
our Station partners would have been steep, and this would have damaged 
our prospects for future international cooperation in lunar return.)
    Instead, the Human Spaceflight Committee report argued that we 
should decide on our goals for human space flight, and then have 
destinations flow from these goals. The committee concluded that human 
space flight serves a variety of national interests--and certainly 
inspiring the next generation, furthering national security, driving 
technology innovation, and other areas are important among these. But 
sending human beings beyond low-Earth obit, with the enormous expense 
and long timelines that this entails, does not make contributions to 
these areas that are so unique or cost effective that they in 
themselves justify the decision to go beyond LEO. Rather, sending 
humans beyond low Earth orbit has as its fundamental goal charting a 
path for human expansion into the Solar System. This is ambitious, but 
if this is not our goal, we'd best just restrict ourselves to 
destinations in LEO. Human expansion into the solar system is a goal 
worthy of a great nation working in concert with other space powers. 
Choosing this as our long-term goal, while trying to maximize 
spaceflight's contributions to all areas of society as we proceed, 
provides the context for making decisions about our next steps. And it 
also embraces the ISS as a means to an end rather than a destination 
that we've left behind.
    Second, the report insists on scientific integrity. Each option 
presented for consideration was examined for its impact on science, and 
all else being equal options that did a better job furthering science 
were rated more highly. But human spaceflight should not be justified 
with exaggerated claims about its scientific payoff. Exploration with 
astronauts can have significant scientific benefits in several areas 
beyond the tautological justification of studying what happens to 
humans in space. As was emphasized by scientists' testimony to the 
Committee, astronauts have a tremendous advantage over robot spacecraft 
when it comes to field geology in particular. The ability to pick up a 
rock, turn it over, expose a fresh surface with a hammer and then use 
geological expertise to decide whether to move on or instead to ``dig 
in'' and examine the current site in detail is a human capability that 
far exceeds anything robot rovers can currently do. In a similar way, 
the ability to service and repair space observatories that face 
unanticipated problems favors the astronaut over the robot.
    But astronauts are also far more expensive than robot spacecraft or 
rovers, and have their greatest advantage in the most complex 
environments and circumstances. Mars is the most complicated surface 
environment we will face in the foreseeable future, so it is where 
astronauts will provide the greatest advantage. But it will be decades 
before humans walk on that world--if we are lucky--and for most other 
science in space, humans often get in the way.
    Moreover, if NASA's space science budget is not protected, it could 
be raided to fund cost overruns in the human program. Human 
spaceflight, if it is to be justified and sustained, needs to be 
aligned with national priorities. Were key space-based research to be 
cut to fund human spaceflight, human spaceflight would be put into 
opposition with those priorities. This would serve neither science nor 
the future of human spaceflight well.
    We live in a time of extraordinary discoveries about outer space. 
We have learned that early Mars had standing liquid water on its 
surface, and that the resulting sedimentary rocks are still accessible. 
These are the kind of rocks that can contain information about the 
early martian environment, or even microfossils should life ever have 
existed on that world. We've learned that there are many other ocean 
worlds in our Solar System--moons of the outer planets that host liquid 
water oceans beneath their ice covers that are as big as our own. We've 
learned that solar systems are common, and that the arrangement of 
planets in our own is but one of a vast array of possibilities. And 
we've learned that most of the mass-energy of the Universe is not made 
up of the kind of matter we are familiar with here on Earth--and that 
we don't quite know what this more exotic mass-energy is. Human 
spaceflight should be an ally in, and certainly not an opponent of, 
these momentous discoveries.
    Third, the Human Spaceflight Committee report called for the 
government's space agency to concentrate on the hardest technological 
problems associated with our goals in space flight. For the rest, 
including sending astronauts into low-Earth orbit, the commercial 
sector should play a bigger role. The commercial sector should ``fill 
in'' behind NASA, while NASA spearheads exploration out into the Solar 
System. In fostering a robust commercial sector, NASA's role would 
include funding, in a disciplined way, the development of capabilities 
by a number of commercial actors, developing the technologies to 
underpin future exploration, and providing an ongoing market pull for 
the commercial sector by providing destinations--whether this is the 
ISS or destination projects, such as the development and implementation 
of potentially game-changing capabilities such as fuel depots in space.
    Fourth and finally, the Committee report called for budget and 
schedule reality. The report argued that the budget then foreseen for 
human spaceflight--$99 billion over ten years--would not allow NASA to 
do anything beyond low-Earth orbit. NASA could afford to pay for the 
new rockets and crew vehicle that would replace the space shuttle and 
make it possible to journey outward, but not for systems to land on the 
Moon or for operations on a path to take astronauts to asteroids or to 
fly around Mars. The report suggested that in order to do both--to 
develop the new systems and to fly them to destinations beyond low-
Earth orbit--would require an increase in NASA's budget of around $3 
billion per year.
    A problem forever confronting NASA is that it seemingly can have 
either the budget to develop a new human spaceflight architecture, or 
it can have the budget for ongoing astronaut operations--but not both. 
To afford to develop a major new launch system, NASA has to stop 
flying. This is the current budget dilemma in a nutshell, and the 
ultimate reason for the upcoming ``gap'' in U.S. launch access to the 
ISS. Indeed, to develop Constellation, NASA planned both to stop flying 
the Shuttle and to terminate the ISS.
    You might also notice that the Human Spaceflight Committee's report 
contained few inspiring artists' conceptions of our dramatic future 
with human explorers in space. Some past reports have been full of 
pictures of rocket launches, space cities, and astronauts with rocket 
packs flying all over. I respect those reports' optimism, and want to 
share it. But there have been too many glorious images of our exciting 
future in space unmatched by the budget for a realistic path to that 
future.
Current Issues
    The NASA Authorization Act of 2010 declares that ``The long term 
goal of the human spaceflight and exploration efforts of NASA shall be 
to expand permanent human presence beyond low-Earth orbit and to do so, 
where practical, in a manner involving international partners.'' \7\ At 
this highest level, and I believe in many details as well, the 2010 
Authorization Act is consistent with the sense of the Human Spaceflight 
Review Committee's framework.
---------------------------------------------------------------------------
    \7\ ``National Aeronautics and Space Administration Authorization 
Act of 2010,'' Pub. L. No. 111-267 (Oct. 11, 2010), Section 202(a).
---------------------------------------------------------------------------
    An important objective identified by the Authorization Act is to 
``sustain the capability for long-duration presence in low-Earth orbit, 
initially through continuation of the ISS . . . and through assisting 
and enabling an expanded commercial presence in, and access to, low-
Earth orbit, as elements of a low-Earth orbit infrastructure. . . .'' 
\8\ The bill embraces the development of commercial cargo (Commercial 
Orbital Transportation Services, COTS) and crew (Commercial Crew 
Development, CCDEV) capabilities. There will always be arguments over 
relative and absolute levels of funding, but the vision in the 
Authorization bill of LEO becoming an economic zone (from the point of 
view of human spaceflight; of course it is this already with respect to 
unmanned satellites) sustained by government activities (e.g., 
servicing ISS, development of new capabilities such as fuel depots) but 
with increasing commercial opportunities, provides our best chance at 
bringing costs down and creating a vibrant human spaceflight future in 
low-Earth orbit. The COTS model in which NASA pays the commercial 
providers by milestones, rather than in a cost-plus manner, already 
suggests that this new approach brings concrete advantages.
---------------------------------------------------------------------------
    \8\ Ibid., Section 202(b).
---------------------------------------------------------------------------
    Beyond LEO, at this point the government must take the lead in 
developing deep-space capabilities, but we can do so with the hope that 
the commercial model may ultimately mature to the point where it can 
play a role analogous to the one it is just beginning to play in low-
Earth orbit. That remains to be seen, but the optimists' view of our 
future in space is that this, too, will prove credible. For now, the 
2010 Authorization calls on NASA to develop a heavy-lift vehicle to 
preserve the Nation's core capabilities in space launch, and to provide 
a kind of final backup, should it be needed, for cargo or crew delivery 
to the ISS in the event that other commercial or partner-supplied 
vehicles fail to meet these needs.
    NASA is to build as much as practical on existing capabilities and 
create a heavy-lift vehicle in the 70-100 tons-to-orbit range. This 
system is to be evolvable to a 130-ton-to-orbit system.\9\ However, the 
Authorization bill also states that: ``Human space flight and future 
exploration beyond low-Earth orbit should be based around a pay-as-you-
go approach. Requirements in new launch and crew systems authorized in 
this Act should be scaled to the minimum necessary to meet the core 
national mission capability needed to conduct cislunar missions. These 
initial missions, along with the development of new technologies and 
in-space capabilities can form the foundation for missions to other 
destinations. These initial missions also should provide operational 
experience prior to the further human expansion into space.'' \10\ We 
should not lose sight of this ``minimum necessary requirements'' 
criterion, and do our best to ensure that funding to maintain this core 
national capability does not prevent or overly impede the development 
of the commercial ecosystem in LEO that may be our best longer-term 
hope for a robust human future in space. If there is one place where 
new resources should be targeted to mitigate NASA's budget dilemma, it 
is here.
---------------------------------------------------------------------------
    \9\ Ibid., Section 302(c).
    \10\ Ibid., Section 301(a)(7). Italics are mine.
---------------------------------------------------------------------------
Conclusion
    Forty years after Apollo, the decade following President Kennedy's 
pledge to land a man on the Moon is still remembered as NASA's heroic 
age. We cannot help but admire the achievements of that time. But it 
may be that the power of this memory and admiration can also work 
against us. It is sometimes said that NASA isn't the agency that it was 
in 1965. But in FY 2009 dollars, that agency then was spending nearly 
$20 billion, not $10 billion, per year on human spaceflight.
    Twice since Apollo, U.S. Presidents have announced Apollo-like 
projects. President George H. W. Bush declared his Space Exploration 
Initiative in 1989 to send astronauts to Mars, but no corresponding 
budget was forthcoming. President George W. Bush announced his Vision 
for Space Exploration in 2004, but the budget not only was not 
sustained, it was not quite there from the beginning. We should learn 
from the four decades after Apollo as much as from the decade of 
Apollo. And the lesson of those four subsequent decades seems to be 
that we cannot hope to be successful by declaring new Apollo-like 
programs for space exploration.\11\
---------------------------------------------------------------------------
    \11\ See Roger Handberg, ``Small Ball or Home Runs: The Changing 
Ethos of U.S. Human Spaceflight Policy,'' The Space Review, January 17, 
2011, available at http://www.the
spacereview.com/article/1759/1.
---------------------------------------------------------------------------
    All the dramatic artists' renditions in our reports or powerpoint 
slides won't make it so. We are not going to spend $10 billion per year 
more for human spaceflight. Our Committee argued that $3 billion per 
year more could enable exploration beyond LEO on a reasonable 
timescale. Evidently that, too, is not going to happen. If not, then 
experience should triumph over hope and we should embrace a different 
model.
    That model would be one where we systematically assemble the 
capacity and infrastructure that will, over time, enable our expansion 
into the Solar System. We would maintain key national capabilities and 
develop the heavy-lift capacity that will be needed--and develop it in 
a way that is evolvable to greater demands in the future. But we would 
also strongly support the robust growth of a space-launch-to-LEO 
``ecosystem'' of cargo and crew capabilities, and recognize this as a 
model for the future that we want to encourage. Synergistically, NASA 
would develop technologies that might prove to be game-changers, or at 
least game-evolvers, such as fuel depots in low-Earth orbit or beyond. 
We would work toward human operations in cislunar space,\12\ then move 
out. But this time, as we went, we would try to create a human 
spaceflight ecosystem in the wake of our exploration. Let's see if we 
can.
---------------------------------------------------------------------------
    \12\ ``Cislunar'' space is defined to be the region of space around 
Earth and out to and including the region of space around the surface 
of the Moon.

    Senator Nelson. Thank you, Dr. Chyba.
    So now we are at $18.5 billion per year, projected flat 
line for at least a few years. So that is the constraints we 
are looking at.
    Dr. Chyba. For the entire agency. Yes, sir.
    Senator Nelson. Yes.
    Captain Culbertson?

        STATEMENT OF FRANK L. CULBERTSON, JR. (CAPTAIN, 
       USN, RET.) COMMANDER, INTERNATIONAL SPACE STATION 
                          EXPEDITION 3

    Captain Culbertson. Thank you.
    Good morning, Chairman Nelson, Ranking Member Hutchison, 
Ranking Member Boozman, and Senator Rubio.
    I appreciate this opportunity to discuss the significant 
and tangible contributions of the space program to our national 
imperatives and the vital need to maintain our leadership on 
this endless frontier, especially since this hearing occurs in 
the same month we commemorate the fiftieth anniversary of Alan 
Shepard's first American space flight and President Kennedy's 
speech to Congress committing our nation to land on the Moon.
    I had the privilege and honor on two Space Shuttle missions 
and one expeditionary mission to the International Space 
Station of logging 144 days in space. And while it is true that 
every day spent in space is memorable, there was 1 day while 
onboard the International Space Station that will remain seared 
in my memory as long as I live. And you will see in a moment 
why I refer to this.
    To me, this day serves as a constant reminder of why 
America's commitment to peacefully explore and utilize space 
for the benefit of our citizens and people around the world is 
so vital to our collective future and why we must not retreat 
from our leadership in space, especially in light of recent 
events.
    Ten years ago, I was serving as commander of the third 
expedition aboard the ISS and was the only American physically 
in orbit. On the morning of September 11, 2001, I had just 
completed medical examinations on my fellow crew, Vladimir 
Dezhurov and Mikhail Tyurin, and called our flight surgeon with 
the results. Dr. Hart replied with the chilling words, ``Frank, 
we are having a very bad day down here on the ground.''
    We were stunned as he described events in New York City, 
Washington, D.C., and Pennsylvania as they unfolded. I saw that 
our flight path was taking us over New England. So I was able 
to grab a video camera and focus in horror on the spreading 
smoke and dust enveloping Manhattan. In a few hours, we found 
out that we had just witnessed the second tower's fall.
    Later, after being assured by my wife, with NASA's help, 
that our scattered children were safe, I learned sadly that the 
captain of American Airlines Flight 77, which crashed into the 
Pentagon, was my Naval Academy classmate, fellow fighter pilot 
and friend, Chic Burlingame. It became very personal to me at 
that moment.
    The next night, I wrote a personal letter to my academy 
classmates, who were gathering for our long-planned reunion. 
The letter concluded with, ``It is horrible to see smoke 
pouring from wounds in your own country from such a fantastic 
vantage point. The dichotomy of being on a spacecraft dedicated 
to improving life on the Earth and watching life being 
destroyed by such willful terrible acts is jolting to the 
psyche, no matter who you are. And the knowledge that 
everything will be different than when we launched by the time 
we land is a little disconcerting.''
    ``I have confidence in our country and in our leadership 
that we will do everything possible to better defend her and 
our families and to bring justice for what has been done.''
    My confidence that justice would be served began a month 
later, as I observed the invasion of Afghanistan from space, as 
my classmates and friends entered harm's way to punish those 
who had harmed us, and was even better fulfilled three weeks 
ago. The dichotomy I wrote about after September the 11th 
between a vile and doomed ideology bitterly opposed to freedom 
and progress and our peaceful venture to utilize the 
International Space Station for the noblest of human purposes 
serves as a useful point from which to discuss the critical 
need to have a strong and vibrant space program.
    As I said, everything was different after we landed, but 
also different onboard. We had a job to do, as did the brave 
and committed team on the ground, but our relationship with the 
ground changed. We spoke with and to an even larger number and 
variety of people than had been planned preflight, from royalty 
and prime ministers to special people, such as Walter 
Cronkite--twice, because he had more questions--and school 
children displaced by the events at Ground Zero. I spoke to 
over 40 schools during the time I was up there.
    Always it was as if they were looking to us to prove that 
humanity can build together, can do great things, even in the 
midst of the unthinkable. You see, they wanted to look to the 
sky for an example of something good, something positive they 
could point to for others. An international project worth 
pointing your children toward. And they wanted to hear that the 
world still looked OK from up there.
    Some in this room were around when we went to the Moon from 
1969 to 1972 in the midst of that other war, Vietnam, and while 
trying to heal wounds and solve issues with civil rights and 
civil liberties in our own country. It was an extremely 
difficult time, but we still had the ability and the courage to 
expand our boundaries in space while changing society on Earth 
and dealing with the reality of that conflict.
    And everyone remembers the significance of the Moon landing 
and how proud it made them to be alive at a time like that. It 
proved that despite the biggest challenges we can imagine on 
Earth, we can still do great things. We can maintain our 
leadership and do great things beyond the Earth, beyond the 
horror we have to deal with day-to-day.
    Today, we should be equally proud that we now have a 
permanent presence in space, a place for our children to aspire 
to work and to use as a stepping stone to their own new 
boundaries. The Space Station has been permanently manned for 
over a decade.
    The International Space Station, which NASA Administrator 
Charles Bolden rightly calls the centerpiece of our human 
spaceflight endeavors for the coming decade, our anchor for 
human exploration, is not only one of the most amazing feats of 
human engineering, but also one of the greatest examples of 
productive international cooperation.
    Through use as a research facility will improve the lives 
of millions and help pave the way for humanity's next great 
leaps to the Moon, to the asteroids, and onward to Mars. Space 
exploration currently led by the United States of America is 
the true march of progress.
    The ISS, a cooperative project between the U.S., Canada, 
the nations of the European Space Agency, Japan, and Russia, is 
a tremendous example of soft power. The ability of the United 
States and our partners to expand our influence and 
capabilities because of the attractions of our values, goals, 
and technological leadership.
    I was well aware of that type of power projection as a 
career naval officer and saw the benefits of it in port of 
calls to almost 40 countries around the globe. As the second 
manager of the Shuttle-MIR Program, the precursor to the ISS, I 
also saw the incredible benefits of partnering with our former 
adversaries, learning their capabilities, and together 
beginning to build the station that has provided humanity with 
a permanent presence in orbit for the past decade.
    I believe the ISS is an ideal platform for conducting 
valuable scientific research and developing and simulating the 
operations, technologies, and techniques for executing more 
ambitious and lengthy missions to the Moon, Mars, and other 
destinations.
    This morning, Endeavour, my last ride home from space, 
docked with the Space Station for the last time. The crew of 
Endeavour and the crew of the Space Station are working 
together now to continue the job that was begun many, many 
years ago.
    I want to, at this time, give my tribute to the Shuttle 
team that has made all of this possible for so long. The 
dedication and the commitment, the long hours, the do-overs, 
the listening to the public, the listening to the media, 
criticism and praise, they have done a fantastic job. My hat is 
off to them.
    But like almost all the military aircraft I flew and all 
the aircraft carrier I landed on, the Shuttle is ending its 
mission. All my former aircraft are now static displays, and my 
aircraft carriers are museums. This happens, and now we are 
transitioning to a new phase.
    ISS is now outfitted with 15 pressurized modules, the 
volume of a five-bedroom house. To give you an example of its 
scope, the solar array that powers the facility at 84 kilowatts 
has a surface area that could cover the U.S. Senate chamber 
three times over. Some of you suggested they do that.
    [Laughter.]
    Captain Culbertson: The ISS capabilities include 34 
research racks and 22 external locations for experiments. It is 
now capable of accommodating 100 to 300 payloads with crew 
science support of 2,000 or 3,000 hours a year.
    Even though we are just reaching the point of near full 
assembly and the full potential can be utilized, research has 
already demonstrated its promise, and my written statement 
contains several references to all that has been done up there 
and is being done on Earth.
    But it will require in the future a robust system for both 
resupply and crew transport. We can debate the timetable we are 
on, the details of who provides what, but in the end, NASA and 
the U.S. space industry are aggressively pursuing systems that 
will--no, must be safe and reliable.
    A combination of commercial endeavors and government 
endeavors will need to work to make a balance of research for 
long-duration human space flight with frequent visits by 
experimenters and observers. I personally think we need to go 
to the station as often as possible with as many spacecraft as 
we can.
    This will require the solid support of Congress, government 
leaders, and the American people. And the authorization bill, I 
think, moves us in that direction.
    With respect to how much we invest in the space program, I 
would imagine that members of the Committee probably share my 
frustration. The survey shows the public vastly overestimates 
NASA's budget. Yet this is somewhat understandable, given the 
high profile of the missions.
    I was simply astounded the other day, however, when I read 
a recent Congressional Quarterly cover story on the space 
program in which the author wrote that NASA's budget has 
hovered at around 1 percent of the total budget since the mid-
1970s. If only that were the case.
    Alas, the reality is that today NASA's budget represents 
less than 0.5 percent of the budget. If it were a mere 1 
percent, actually, we probably wouldn't have to have this 
hearing.
    Finally, a discussion of NASA's contributions to national 
imperatives must include the subject of which nation will be 
the first among nations in leading peaceful human and robotic 
exploration of the solar system while learning how to live and 
travel more safely, efficiently, here on Earth.
    It is not a foregone conclusion that the United States will 
remain the preeminent space-faring nation and will reap the 
benefits of leading the march of progress toward low-Earth 
orbit. That is why I am gratified that this hearing is being 
held, and I am honored to sit alongside people who care as 
deeply about our future in space as I do.
    In closing, I am proud that our nation continues to inspire 
people throughout the world. My mother and father's generation 
after World War II took on responsibility of leading the world 
as a great nation. They assumed the leadership. They assumed 
the responsibility.
    But when you assume that responsibility, a lot goes with 
it. And to me, the space program is a part of that 
responsibility. You have to set an example. You have to shine a 
light on the unknown, and you have to put beacons in the sky, 
such as the International Space Station, which can easily be 
seen with the naked eye. Great nations do great things. We need 
to continue doing that.
    I feel a special responsibility, because of my unique 
position as the only American who was off the planet on 
September 11, to spread the world that our leadership in space 
is vital to our way of life and our future. It is a hard-won 
accomplishment and one we should never consider surrendering 
easily.
    In space, we inspire respect and sometimes envy, but always 
we show we are leading. Our freedoms allow us to do that. This, 
to me, is the abiding lesson of my unique experience.
    Thank you for the opportunity to testify before this 
important hearing.
    [The prepared statement of Captain Culbertson follows:]

  Prepared Statement of Frank L. Culbertson, Jr. (Captain, USN, Ret.) 
          Commander, International Space Station Expedition 3
    Good morning Chairman Nelson, Committee Ranking Member Hutchison, 
Ranking Minority Member Boozman and members of the Subcommittee. I 
appreciate this opportunity to participate in this very timely hearing 
concerning the ongoing significant and tangible contributions of the 
space program to our national imperatives, and the vital need to 
maintain our leadership on this endless frontier, especially since it 
occurs in the same month we commemorate the 50th anniversary of Alan 
Shepard's first American Spaceflight and President Kennedy's speech to 
Congress committing our Nation to land on the moon.
    I had the privilege and honor on two Space Shuttle missions and one 
expeditionary mission to the International Space Station, of logging 
144 days in spaceflight. And while it is true that every day spent in 
space is memorable, there was one day while onboard the International 
Space Station that will remain seared in my memory as long as I live. 
To me this day serves as a constant reminder of why America's 
commitment to peacefully explore and utilize space for the benefit of 
our citizens and people around the world is so vital for our collective 
future, and why we must not retreat on our leadership in space.
    Ten years ago, I was serving as commander of the Third Expedition 
onboard the ISS, and was the only American physically in orbit. On the 
morning of September 11, 2001, I had just completed medical 
examinations of my fellow crew, Vladimir Dezhurov and Mikhail Tyurin, 
and called our flight surgeon with the results. Dr. Hart replied with 
the chilling words, ``Frank, we're having a very bad day here on the 
ground. . . .'' We were stunned as he described events on the ground in 
New York City, Washington, D.C. and Pennsylvania as they unfolded. I 
saw that our flight path was taking us over New England, so I was able 
to grab a video camera and focus, in horror, on the spreading smoke and 
dust enveloping Manhattan. We found out in a few hours that we had just 
witnessed the fall of the second tower. Later, after being assured by 
my wife that our scattered children were safe, I learned sadly that the 
Captain of American Airlines Flight 77, which crashed into the 
Pentagon, was my Naval Academy classmate, fellow fighter pilot and 
friend Chic Burlingame.
    The next night, I wrote a personal letter to my Academy classmates 
gathered for our long-planned reunion. The letter concluded with, 
``It's horrible to see smoke pouring from wounds in your own country 
from such a fantastic vantage point. The dichotomy of being on a 
spacecraft dedicated to improving life on the earth and watching life 
being destroyed by such willful, terrible acts is jolting to the 
psyche, no matter who you are. And the knowledge that everything will 
be different than when we launched by the time we land is a little 
disconcerting. I have confidence in our country and in our leadership 
that we will do everything possible to better defend her and our 
families, and to bring justice for what has been done.''
    My confidence that justice would be served began a month later as 
my classmates and friends entered harm's way to punish those who harmed 
us--and was even better fulfilled three weeks ago. The dichotomy I 
wrote about after September 11th between a vile and doomed ideology, 
bitterly opposed to freedom and progress, and our peaceful venture to 
utilize the International Space Station for the noblest of human 
purposes serves as a useful point from which to discuss the critical 
need to have a strong and vibrant space program.
    As I said, everything was different after we landed, but also 
different on board. We had a job to do, as did the brave and committed 
team on the ground, but our relationship with the ground changed. We 
spoke with and to an even larger number and variety of people than had 
been planned preflight--from royalty and prime ministers to special 
people such as Walter Cronkite (twice) and school children displaced by 
the events at Ground Zero. Always, it was if they were looking to us to 
prove that humanity can build together, can do great things, even in 
the midst of the unthinkable. It seemed they wanted to look to the sky 
for an example of something good, something positive they can point 
others to: an international project worth pointing your children 
toward--and they wanted to hear that the world still looked okay from 
up there.
    Some in this room were around when we went to the moon from 1969 to 
1972, in the midst of that other war--Vietnam--and while trying to heal 
wounds and solve issues with civil rights and civil liberties in our 
own country. It was an extremely difficult time, but we still had the 
ability and courage to expand our boundaries in space while changing 
society on earth and dealing with the realities of a conflict. And 
everyone remembers the significance of the moon landing, and how proud 
it made them to be alive at a time like that.
    Today we should be equally proud that we now have a permanent 
presence in space, a place for our children to aspire to work, and to 
use as a steppingstone to their own new boundaries. The International 
Space Station, which NASA Administrator Charles Bolden rightly calls 
``the centerpiece of our human spaceflight endeavors for the coming 
decade, our anchor for human exploration,'' is not only one of the most 
amazing feats of human engineering, but also one of the greatest 
examples of productive international cooperation, whose use as a 
research facility will improve the lives of millions and help pave the 
way for humanities' next great leaps to the moon, to the asteroids and 
onward to Mars. Space exploration, currently led by the United States 
of America is the true march of progress.
    The ISS, a cooperative project between the U.S., Canada, the 
nations of the European Space Agency, Japan and Russia, is a tremendous 
example of ``soft power''--the ability of the United States and our 
partners to expand our influence and capabilities because of the 
attraction of our values, goals, and technological leadership. I was 
well aware of that type of power projection as a career Naval officer 
and saw the benefits of it in port calls to almost forty countries 
around the globe. As the second manager of the Shuttle-Mir Program, the 
precursor to ISS, I also saw the incredible benefits of partnering with 
our former adversaries, learning their capabilities, and together, 
beginning to build the station that has provided humanity with a 
permanent presence in orbit for the past decade.
    In addition, I believe the ISS is an ideal platform for conducting 
valuable scientific research and for developing and simulating the 
operations, technologies, and techniques for executing more ambitious 
and lengthy missions to the Moon, Mars, and other destinations.
    Outfitted with 15 pressurized modules the ISS has the volume of a 
five-bedroom house. To give you one example of its scope, the ISS solar 
array that powers the facility at 84 kw, has a surface area that could 
cover the U.S. Senate Chamber three times over. The ISS's capabilities 
include 34 research racks and 22 external locations for experiments. 
The Station is capable of accommodating 100-300 experimental payloads 
with crew science support of at least 2,000 to 3,000 hours per year.
    When I returned to Earth from the Expedition-3 mission I came home 
on the Space Shuttle Endeavour. And this morning, the Endeavour--now on 
its final voyage--is once again at the International Space Station, 
adding to its capabilities with delivery of the Alpha Magnetic 
Spectrometer, a particle physics experiment that will measure cosmic 
rays and in an example of science at its most daring look for evidence 
of dark matter and antimatter in the far reaches of the universe. This 
scientific instrument owes its place on the space station directly to 
actions taken by the Senate.
    Even though we are just reaching the point of near full assembly 
and the full potential of the ISS can begin to be utilized, research 
onboard the Station has already demonstrated its promise. Thus far 
there have been 214 published results from specific payloads and 
projects, and 20 publications on the ISS and future exploration 
technologies. I am very thankful this facility will operate at least up 
to the end of this decade and perhaps to 2028.
    A few examples illustrate the stations promise. One of the most 
compelling ISS research results is confirmation that the ability of 
common germs to cause disease increases during spaceflight, but that 
changing the growth environment of the bacteria can control this 
virulence. An experiment identified the increased virulence of space-
flown Salmonella typhimurium, a leading cause of food poisoning. Future 
ISS research will target a vaccine for this disease.
    Another ISS experiment demonstrated a new and powerful method for 
delivering drugs to targets in the human body. Microgravity research on 
the station led to the development of miniature, liquid-filled balloons 
the size of blood cells that can deliver medicine directly to cancer 
cells.
    The work to develop the Station's regenerative water recycling 
system to provide safe drinking water for crews onboard the Station has 
resulted in technology that can help in disaster recovery in areas 
where water purification is a significant issue after earthquakes and 
other natural disasters. The system has been used to provide purified 
water to Kurdish villages in Northern Iraq and for earthquake relief in 
Pakistan.
    In a different area of research, ISS tests of how spacecraft 
materials withstand the harsh space environment have been used to 
develop longer duration solar cells and insulating materials for future 
commercial station cargo ships. This experiment has significantly 
reduced the time needed to develop new satellite systems, and paved the 
way for materials to be used in new NASA spacecraft that will send 
crews beyond Low Earth Orbit.
    In one of my favorite examples, NASA built a facility at its Glenn 
Research Center to bombard materials planned for the ISS with atomic 
oxygen to test their durability. Atomic oxygen is an elemental form of 
oxygen that does not exist in Earth's atmosphere, but is common in Low 
Earth Orbit, and is known to corrode spacecraft. NASA engineers Bruce 
Banks and Sharon Miller realized their facility could be used to remove 
unwanted material from surfaces without ever needing to touch or rub 
them. Their invention was used to restore two 19th century religious 
paintings damaged by an arson fire at St. Alban's Church in Cleveland 
Heights, Ohio, and a vandalized Andy Warhol painting.
    I'm confident that these promising research results are only the 
start of what we are going to see come out of ISS research. And thanks 
to the work of this committee and others in Congress, the 2005 NASA 
Authorization Act designated the U.S. segment of the ISS as a National 
Laboratory. This designation will enable a non-profit organization to 
allocate valuable ISS experimental space for the most promising 
research proposals in the fields of biology, chemistry, medicine, 
physiology and physics as well as for astronomical and meteorological 
observation. The non-profit will invite research proposals from NASA, 
other governmental organizations, university researchers or the private 
sector.
    I personally see the ISS as, at least, the virtual jumping off 
point for us to begin to send crews out to explore further in the solar 
system. And frankly, I wish we would be more aggressive in getting more 
crews up there to conduct more research.
    The ISS is a vital research platform to understand the effects of 
the space environment on humans, with research aimed at protecting 
future explorers from the harmful effects of radiation in space, and to 
reduce the rate of bone and muscle loss that astronauts experience over 
lengthy periods of time in zero gravity. The ISS serves as a test-bed 
for developing spacecraft hardware and closed-loop life support 
systems, and to test operations for missions that will extend for 
millions of miles and years at a time. ISS crews will simulate our next 
great leaps in space, and help mature our understanding of human 
factors and the ability of explorers from diverse backgrounds to work 
in concert with each other in close-quarters for extensive periods of 
time. The ISS will help us learn the skills of deep space logistics 
management, conducting remote medicine and managing communications when 
contact with Mission Control is minutes rather than seconds away.
    With this knowledge we can be confident when the time does come to 
return humans to the Moon, to explore the asteroids, and eventually 
land on the surface of Mars.
    Of course all this will be true only if we have Federal policies 
that support a robust space program over a sustained period of time, if 
we maintain a highly-skilled and dedicated workforce, and if we 
continue to inspire the next generation of explorers to aim high for 
goals worth striving for.
    NASA has been looking for innovative ways to develop new 
capabilities in space and has developed a government-private industry 
partnership for providing logistical support to the ISS. That 
partnership, the Commercial Orbital Transportation Services program, or 
COTS, will come to fruition in the very near future with new ground and 
space infrastructure to support ISS operations well into the future at 
a cost significantly less than the cost of a traditional government 
procurement.
    With respect to how much we invest in the space program, I would 
imagine that members of the Committee probably share my frustration 
that surveys show the public vastly overestimates NASA's budget, yet 
this is somewhat understandable given the high profile of our space 
missions. But I was simply astounded when I read a recent Congressional 
Quarterly cover story on the space program in which the author wrote 
that NASA's budget ``has hovered at around one percent of the total 
budget since the mid-1970s.'' If only that were to be the case. Alas, 
the reality is that today's NASA budget represents less than one-half 
of one percent of the budget. If NASA's budget were actually a mere one 
percent of the Federal budget this hearing would be almost unnecessary.
    Today, I have focused my testimony on the value of the 
International Space Station. Of course a more richer understanding of 
NASA's contributions to our national imperatives must include a 
discussion of the agency's work to advance weather forecasting and 
understanding of our planet's dynamic climate, to warn of solar storms 
and spot potentially devastating Earth crossing asteroids, and to 
assist in natural disasters--with NASA satellite support for relief and 
recovery efforts following the Japanese earthquake and tsunami and 
Alabama tornadoes being recent examples.
    It would also be worthwhile to discuss how NASA's science missions 
to Mars, like the upcoming Mars Science Laboratory, the ongoing Dawn 
mission to the asteroids Ceres and Vesta, and orbiting NASA 
observatories like the Keppler Space Telescope and soon to be launched 
James Webb Space Telescope will advance our understanding of the solar 
system and universe and the profound search for evidence of life in and 
outside the solar system, thus benefiting our Nation's reputation as 
the pacesetter of scientific discovery.
    And by all means, it's worth discussing how NASA contributes to 
economic growth through the thousands of jobs and hundreds of new 
industries created as a direct result of NASA innovation. To illustrate 
this point, when USA Today published a list of the ``Top 25 Scientific 
Breakthroughs'' that occurred in the newspaper's first 25 years, nine 
of them came from space and eight directly from NASA. Indeed, the term 
``spinoff'' was invented to describe specific technologies developed by 
NASA for its missions that are transferred for commercial use or some 
other beneficial application. Thus far, NASA has documented more than 
1,500 spinoff success stories related to health and medicine, 
transportation, public safety, consumer goods, environmental and 
agricultural resources, computer technology and industrial 
productivity.
    There is one other aspect of spaceflight that was brought home to 
me in deep and sometimes very personal ways virtually every day I spent 
in orbit--and still now as I'm stuck on the ground. That is the effect 
of space exploration on the educational goals of our youth. Most of the 
people of this country--and of most other countries--especially the 
young people, see eventual access to space as part of their future, and 
maybe even as much a right as access to airlines and highways. It's not 
clear that many people have a realistic understanding of the challenges 
of maintaining and growing our presence in orbit, much less through the 
solar system, but the ultimate product of that interest is the benefit 
to our educational system, the motivation for students to excel in STEM 
subjects, and hopefully to help maintain our leadership in the world on 
many fronts. I know from speaking to schools around the globe, both 
from space, and on my feet, that the space program's influence on 
education is profound, but still not fully capitalized upon. As 
Administrator Bolden said, ``Through the science, research, and 
technology demonstrations conducted on the National Lab [in space], we 
will build foundational knowledge, advance economic competitiveness, 
and prepare for the grand journeys ahead.
    Finally, a discussion of NASA's contributions to national 
imperatives must include the subject of which nation will be first 
among nations in leading peaceful human and robotic exploration of the 
solar system while learning how to live and travel more safely and 
efficiently here on Earth. It is not a foregone conclusion that the 
United States will remain the preeminent spacefaring nation, and will 
reap the benefits of leading the march of progress beyond Low Earth 
Orbit. That is why I am gratified that this hearing is being held, and 
I am honored to sit alongside people who care deeply about our future 
in space.
    In closing, I am proud that our Nation continues to inspire people 
throughout the world for our commitment to freedom, creativity, 
exploration, and commerce, and through our leadership in the frontier 
that will define the future of human civilization. I feel a special 
responsibility because of my unique position as the only American who 
was off the planet on September 11, 2001, to spread the word that our 
leadership in space is vital to our way of life and our future, is a 
hard won accomplishment, and one we should never consider surrendering 
easily. In space we inspire respect, and sometimes envy, but always we 
show we are leading. Our freedoms allow us to do that. This, to me is 
the abiding lesson of being in space on September 11.
    Thank you for the opportunity to testify before this important 
hearing.

    Senator Nelson. Thank you.
    Mr. Pulham?

            STATEMENT OF ELLIOT HOLOKAUAHI PULHAM, 
         CHIEF EXECUTIVE OFFICER, THE SPACE FOUNDATION

    Mr. Pulham. Thanks, Senator.
    Senator Nelson, members of the Committee, committee staff, 
I would like to thank you for your service to our nation. And I 
would like to thank you for the opportunity to offer testimony 
today on the impact and importance of U.S. space programs.
    Space Foundation's mission is to advance space endeavors to 
inspire, enable, and propel humanity. Implicit in this mission 
is our understanding that the exploration, development, and use 
of space really does inspire our nation and the world, really 
does enable us to dare greatly, achieve our goals, and propel 
us confidently into the future.
    First, let me address the global space economy. The data I 
am citing today is from The Space Report 2011. I have a copy 
here, and I think most of the staff already have copies of 
this. It is our most recent annual report on the industry.
    Over the past 6 years, the global space economy has grown 
by 48 percent, from $164 billion in 2004 to $276 billion in 
2010. The average annual growth rate of the industry increased 
from about 5 percent to nearly 8 percent last year. That is one 
heck of a strong industry and a good investment.
    The space economy comprises products and services in both 
terrestrial and space-based infrastructure. While government 
space activities continue to play a major role, the space 
economy today is predominantly commercial.
    Commercial satellite services, commercial satellite 
infrastructure together accounted for $189 billion in 2010. 
That is nearly 70 percent of total space activity. Nonetheless, 
with civil and national security space programs totaling some 
$64.6 billion in 2010, the United States remains by far the 
largest government player.
    Now space is a tremendous economic engine, as my colleagues 
have referred to. The space products and services have, indeed, 
become an integral part of daily life. Whether during work or 
leisure hours, most people reap the benefits of space systems 
and technology continuously and, as you said, Senator, without 
probably knowing it.
    The degree to which U.S. national investments in space have 
proven to be high-impact investments of tremendous national 
benefit cannot be overstated. After all, today's robust 
commercial space industry has its origins in government space 
investment.
    DirecTV, Sirius XM Satellite Radio, CNN, ESPN, Monday Night 
Football, and countless other satellite services are all the 
grandchildren of America's investment in the Telstar Program. 
Google Earth, satellite weather, commercial imagery from space, 
and countless related value-added applications are the 
descendents of the Corona Spy Satellite Program.
    The U.S. aerospace industry, which, by some estimates, 
accounted for 50 percent of the new wealth generated in America 
between 1962 and 2002, built its muscle on Government space 
investments, like Dyna-Soar, X-15, Mercury, Gemini, Apollo, X-
24A, M2-F3, HL-10, and the list goes on--Space Shuttle, 
International Space Station.
    Uniquely, however, U.S. national investments in space have 
spawned new technologies and new industries that could not even 
have been imagined when those investments were made. Because 
spacecraft needed a renewable source of energy on orbit, today 
we have a photovoltaic solar power industry, renewable energy. 
Because spacecraft needed to be guided and controlled, today we 
have accelerometer technology used in everything from 
triggering seatbelts and airbags in our cars to orienting 
SmartPhones.
    Because NASA needed to accurately dock and undock 
spacecraft, today we have precision-guidance technology that 
enables Lasik eye surgery. Because NASA needed to protect the 
environment at Kennedy Space Center, today we have advanced 
environmental containment and cleanup technologies.
    Because the Air Force required a precise global positioning 
system, today GPS is the fundamental underlying architecture 
for commerce, finance, logistics, inventory management, 
commercial, military, law enforcement, emergency services, and 
personal navigation around the world. And because NASA required 
unprecedented turbo pump capability to power the Space Shuttle 
main engines, today we have lifesaving heart pump technologies.
    None of these outcomes were expected. These technologies 
and more than 40,000 others are the result of our previous 
focused national investments in space.
    A third point I would like to touch upon is space and 
foreign policy and national security. The funding of national 
space programs has brought tremendous benefit to U.S. foreign 
policy and national security. Our leadership in space has been 
a preeminent factor in American soft power since the dawn of 
the space age.
    While President Kennedy's speech at Rice University is 
often quoted for its inspirational values, less quoted are the 
political and national security realities that America was 
coming to grips with at that time. ''Man,`` said Kennedy, ''in 
his quest for knowledge and progress, is determined and cannot 
be deterred. The exploration of space will go ahead, whether we 
join in it or not. And no nation, which expects to be the 
leader of other nations, can expect to stay behind in this race 
for space.``
    Whether our objective is to win the cold war, as in Apollo; 
extend a hand in friendship, as in Apollo Soyuz; incentivize 
collaborative behavior, as in the Shuttle-MIR Program; or build 
a broad-based international community, as in the International 
Space Station Program; the soft power of space programs is 
often one of our best foreign relations and national security 
tools.
    All Americans know about the successful mission to get 
Osama bin Laden. I wonder how many of us will ever know how 
huge a role space played in that accomplishment.
    Finally, it must be recognized that our national 
intellectual capacity is directly affected by our investment in 
space programs. As the Apollo Program was gaining momentum, 
enrollment in graduate studies in science and engineering was 
also gaining momentum. In fact, the Apollo Program was both 
expected and intended to double the number of American 
scientists and engineers.
    Doing the hard things requires our best and brightest 
minds. Developing this intellectual capacity requires 
inspiring, challenging, and exciting work to do. When America 
has made that investment, we have never failed to achieve our 
capacity for greatness.
    Thank you.
    [The prepared statement of Mr. Pulham follows:]

    Prepared Statement of Elliot Holokauahi Pulham, Chief Executive 
                     Officer, the Space Foundation
    Senator Nelson, Members of the Committee, and Committee Staff, 
thank you for your service to our nation, and thank you for the 
opportunity to offer testimony on the impact and importance of U.S. 
space programs--both in meeting the needs of humanity, and achieving 
the strategic goals and objectives of the United States. The Space 
Foundation is a 501(c) 3 non-profit operating foundation, and our 
mission is ``to advance space-related endeavors to inspire, enable and 
propel humanity.'' Implicit in this mission is our understanding that 
the exploration, development and use of space really does inspire our 
Nation and the world, enable us to dare greatly and achieve our goals 
and propel us confidently into the future.
Growth of the Global Space Economy
    First, the global space economy. The Space Foundation pursues our 
mission by educating and informing. The bedrock of our ability to do 
this is our commitment to providing accurate, fair, impartial and 
nonpartisan data and analysis. The Space Report, our annual publication 
on the global space economy, is the authoritative guide to global space 
activities. The data I am citing today is from our most recent report.
    Over the past six years, the global space economy has grown by 48 
percent--from $164 billion in 2004 to $276 billion in 2010. The average 
annual growth rate of the industry increased from about 5 percent to 
nearly 8 percent last year.
    The space economy comprises products and services, and both 
terrestrial and space-based infrastructure. While government space 
activities continue to play a major role, the space economy is today 
predominantly commercial. Commercial satellite services and commercial 
satellite infrastructure together accounted for some $189 billion in 
2010--nearly 70 percent of total space activity. In addition to being 
heavily commercial, space is very international. Of the 25 largest 
satellite communication companies in the world, only one is 
headquartered in the United States. Roughly three quarters of all 
commercial satellites are manufactured outside the U.S. Global space 
employment has been stable over the past couple of years, with job 
increases in Japan, India, Germany and other nations offsetting job 
losses in the United States. Nonetheless, with civil and national 
security space programs totaling some $64.67 billion in 2010, the 
United States remains by far the largest government player.
    Space systems today form the essential infrastructure of modern 
life, providing everything from routine weather forecasts, driving 
directions, entertainment and telephone service to inventory tracking, 
resource management and telemedicine. There is increasing awareness of 
the value of space as an economic engine that is crucial to many other 
economic sectors.
    In 2010, as the global economy continued to battle back from 
recession, the space industry not only maintained its growth, but 
actually gathered momentum. The commercial sector flourished, adding 
billions of dollars to the economy. The commercial sector has long been 
involved in national space programs, primarily as contractors and 
service providers. This role is expanding due to new government 
policies that encourage greater reliance on commercial providers, 
particularly in the United States. These policies provide opportunities 
that have generated significant interest among traditional aerospace 
companies, as well as newer space actors, as the commercial sector 
seeks resources to develop its technological capabilities.
    Additionally, more countries are becoming involved in space or are 
revitalizing dormant space programs, with Australia, South Africa and 
Iran as recent examples. In many cases, these space actors are 
incorporating a deliberate commercial element in their space programs 
that targets economic development and technology creation.
    The role of civil society in space activity is also evolving. The 
emergence of smallsats and cubesats is lowering costs and barriers to 
entry, offering civil actors new avenues to engage in space activity. 
When smallsats are networked, the opportunities for new science and 
commercial applications can grow exponentially. Commercial human 
spaceflight also opens an avenue for people to experience space on a 
personal level, and it furthers public interest in space activity even 
for those who do not leave the ground. The growing engagement of 
society in space pursuits not only stirs our imagination, but also 
brings us closer together--researchers, scientists, business 
professionals and government officials--to explore the practically 
limitless opportunities that space promises.
Space as an Economic Engine
    Space products and services are an integral part of daily life, 
expanding each year into new areas of human activity. In one dramatic 
example, space technology and expertise helped to ensure the survival 
and rescue of a group of Chilean miners trapped underground. This 
experience was but a single instance of how the knowledge gained from 
human activity in the challenging environment of space can be applied 
to life on Earth. In more commonplace situations, new space 
applications are helping people communicate with each other and access 
entertainment as they travel by ground, sea or air. Satellite-enabled 
Internet connections are becoming commonplace as airlines outfit their 
fleets with the latest equipment. Navigation applications for cell 
phones can combine input from built-in cameras and GPS chips, enabling 
users to view directions as an overlay on an image of their 
surroundings. GPS tracking systems installed on race cars allow people 
playing computer games to participate in virtual competitions against 
professional drivers during real racing events. Whether during work or 
leisure hours, most people reap the benefits of space systems and 
technology as an integral part of their daily lives.
    The commercial sector continues to incorporate space technology 
both in its manufacturing processes and in its products. The glass 
manufacturing industry is incorporating techniques used in the analysis 
of data from the Hubble Space Telescope and the semiconductor industry 
is creating more powerful microchips using technology developed for 
building ESA's XMM-Newton X-ray observatory. Consumers can purchase 
clothing made from textiles originally developed for use by astronauts 
or have their hair styled with tools that smooth and soften hair using 
nano-ceramic technology developed by NASA. Not only does space 
contribute to the wealth of products available to consumers, it also 
enables companies to estimate consumer activity by observing the ebb 
and flow of customer traffic in the parking lots of retailers by means 
of satellite imagery.
    On a more global scale, satellites offer a unique perspective that 
helps to explain the human relationship with the environment. From 
enabling forestry managers to track the spread of tree-destroying Rocky 
Mountain pine beetles to helping coordinate cleanup efforts after the 
Gulf of Mexico oil spill to monitoring the effects of the earthquake in 
Japan, satellite data is critical to managing natural resources and the 
response to manmade disasters. It is almost unthinkable now to consider 
the prospect of facing a natural disaster without the communications 
and imaging capabilities provided by space systems.
    Individuals, companies and nations continue to create new space-
related products and services, capitalizing on the intellectual and 
financial investments made in space technology. Many governments have 
realized the benefits of using space technology as a tool for carrying 
out their responsibilities and as a means of generating economic 
growth. These governments play an important role in developing new 
space technology, with methods such as financing commercial companies, 
transferring government technology to the commercial sector and 
creating a supportive regulatory regime.
    Regardless of the exact measures undertaken, it is clear that 
governments recognize the need for further growth of space 
capabilities. Government space spending around the world increased to 
$87.12 billion in 2010. The U.S. government space budget, which 
accounted for 74 percent of worldwide governmental space spending, was 
flat at $64.63 billion. Numerous governments announced their intent to 
expand their national space programs in 2010, including Canada, 
Germany, Israel, Japan and India. As these policies translate into 
budgets and program activities, they will increase total government 
spending on space globally; to the extent that funding for U.S. Federal 
space programs remains flat, both inflation and increased spending by 
other nations will erode U.S. leadership.
    The degree to which U.S. national investments in space have proven 
to be high-impact investments of tremendous national benefit cannot be 
overstated. After all, today's robust commercial space industry has its 
origins in government space investment. DirecTV, Sirius/XM radio, CNN, 
ESPN, Monday Night Football and countless other satellite services are 
all the grandchildren of America's Telstar program. Google Earth, 
satellite weather, commercial imagery from space and countless related, 
value-added applications are the descendants of the Corona spy 
satellite program. The U.S. aerospace industry, which by some estimates 
accounted for 50 percent of the new wealth generated in America between 
1962 and 2002, built its muscle on government space programs like Dyna-
Soar, X-15, Mercury, Gemini, Apollo, the X-24A, M2-F3, HL-10, the Space 
Shuttle and the International Space Station.
    Uniquely, however, U.S. national investments in space have spawned 
new technologies and new industries that could not even have been 
imagined when those investments were made. The act of doing things 
``not because they are easy, but because they are hard'' \1\ leads to 
the creation of capabilities that have not previously existed; these, 
in turn, can lead to entirely new industries. Take, for example, the 
cordless tool industry. Prior to NASA having a requirement for cordless 
power tools on the Moon, the power tool industry was content to 
continue manufacturing longer and longer extension cords. The unique 
NASA requirement gave birth to a solution that no one had imagined; 
NASA contractor Martin Marietta hired Black & Decker, and the rest is 
history. Today cordless power tools are manufactured in Maryland, North 
Carolina, South Carolina, Georgia, Mississippi, Tennessee, Arkansas and 
Texas--and increasingly in Japan, China and Europe.
---------------------------------------------------------------------------
    \1\ ``We choose to go to the Moon in this decade and do the other 
things, not because they are easy, but because they are hard, because 
that goal will serve to organize and measure the best of our energies 
and skills, because that challenge is one that we are willing to 
accept, one we are unwilling to postpone, and one which we intend to 
win.''--John F. Kennedy, Rice University, September 12, 1962
---------------------------------------------------------------------------
    This is a very important phenomenon to understand: that investing 
in research to support a specific desired outcome will generate 
solutions and technologies that otherwise would not develop.
    Take the humble, modern microwave oven. Research directed at 
improving the common oven would likely have resulted in ovens that are 
better insulated, more energy efficient and so on. But such efforts 
would probably not have resulted in a microwave oven. The use of 
amplified microwaves, initially in a device called a Klystron, came not 
from the oven or appliance industry, but from a directed effort to 
develop defense radar.
    This is the way that invention and discovery works, and this is why 
America's past investment in space programs has yielded such stupendous 
returns:

  <bullet> Because spacecraft needed a renewable source of energy on 
        orbit, today we have a solar power (photovoltaics) industry.

  <bullet> Because spacecraft needed to be guided and controlled, today 
        we have accelerometer technology used in everything from 
        triggering automotive seatbelts and air bags to orienting smart 
        phones.

  <bullet> Because NASA needed to accurately dock and undock 
        spacecraft, today we have precision guidance technology that 
        enables LASIK eye surgery.

  <bullet> Because NASA needed to protect the environment from toxic 
        chemicals associated with rocket launching, today we have 
        advanced environmental containment and clean-up technologies.

  <bullet> Because the Air Force required a precise global positioning 
        system, today GPS is the fundamental underlying architecture 
        for commerce, finance, logistics, inventory management and 
        commercial, military, law enforcement, emergency services and 
        personal navigation around the world.

  <bullet> Because NASA required unprecedented turbo-pump capability to 
        power the Space Shuttle main engines, today we have life-saving 
        heart pump technologies.

    None of these outcomes were expected. These technologies, and more 
than 40,000 others, are the result of our previous national investments 
in space.
Space and Foreign Policy, National Security
    The funding of national space programs has also brought tremendous 
benefit to U.S. foreign policy and national security, both directly, 
and indirectly.
    U.S. leadership in space has been a leading contributor to American 
``soft power'' since the dawn of the space age. The nation's entry into 
the space race is often seen only as a reaction to the Soviet Union's 
launch of Sputnik; the doctrine behind this reaction is worth 
remembering. Kennedy's speech at Rice is often quoted for its 
inspirational and humanistic value. Less often quoted are the political 
and national security realities that America was coming to grips with:

        ``. . . man, in his quest for knowledge and progress, is 
        determined and cannot be deterred. The exploration of space 
        will go ahead, whether we join in it or not, and it is one of 
        the great adventures of all time, and no nation which expects 
        to be the leader of other nations can expect to stay behind in 
        this race for space.'' \2\
---------------------------------------------------------------------------
    \2\ Kennedy continues: ``Yet the vows of this Nation can only be 
fulfilled if we in this Nation are first, and, therefore, we intend to 
be first. In short, our leadership in science and in industry, our 
hopes for peace and security, our obligations to ourselves as well as 
others, all require us to make this effort, to solve these mysteries, 
to solve them for the good of all men, and to become the world's 
leading space-faring nation.''

    The mastery of space has always carried with it the not-so-subtle 
message to friend and foe: This is what we are capable of. You want to 
work with us. You want to be our friend. You want to follow our lead. 
You do not want to challenge us.
    The message of the Apollo program was very clear--the U.S. triumphs 
over the Soviet Union and democracy triumphs over communism. We win. We 
are the leader. Follow us.
    Whether our objective is to win the Cold War (Apollo), extend a 
hand in friendship (Apollo-Soyuz), incentivize collaborative behavior 
(Shuttle-Mir) or build a broad-based international community (ISS), the 
soft power of space programs is often one of our best foreign relations 
and national security tools.
    Certainly, space programs have also been inextricably linked with 
``hard'' power. Our current expendable launch systems descend from ICBM 
boosters. The Space Shuttle was configured so that it could carry out 
clandestine military missions. Friendly American satellites that carry 
out environmental monitoring and commercial satellites that deliver 
exquisite images of earth from space have their origins in Department 
of Defense space programs. Indeed America's largest secret space 
program, for decades, was the National Reconnaissance Office.
    The ability to observe other nations, share intelligence instantly 
around the world and, when necessary, to strike, are all dependent upon 
our investments in national space programs. All Americans know about 
the successful mission to get Osama Bin Laden. They should also know 
that CIA Director Leon Panetta specifically praised the National 
Geospatial-Intelligence Agency (NGA) and its role as providing the 
essential satellite imagery of Bin Laden's lair that enabled the raid 
to take place.
Space and Our National Intellectual Capacity
    Finally, it must be recognized that our national intellectual 
capacity--the brain power we can bring to bear on any problem, issue or 
challenge--is directly affected by our investment in national space 
programs. As the Apollo program was gaining momentum, enrollment in 
graduate studies in science and engineering was also gaining momentum. 
In fact, and again citing Kennedy's speech at Rice, the Apollo program 
was expected and intended to double the number of American scientists 
and engineers \3\.
---------------------------------------------------------------------------
    \3\ ``Despite the striking fact that most of the scientists that 
the world has ever known are alive and working today, despite the fact 
that this Nation's own scientific manpower is doubling every 12 years 
in a rate of growth more than three times that of our population as a 
whole, despite that, the vast stretches of the unknown and the 
unanswered and the unfinished still far out-strip our collective 
comprehension. . . . During the next 5 years the National Aeronautics 
and Space Administration expects to double the number of scientists and 
engineers in this area.''
---------------------------------------------------------------------------
    Doing the hard things requires our best and brightest minds. 
Developing this intellectual capacity requires inspiring, challenging, 
and exciting work to do. When America has made that investment, we have 
never failed to achieve our capacity for greatness.

    Senator Nelson. Mr. Slazer?

  STATEMENT OF FRANK SLAZER, VICE PRESIDENT, SPACE, AEROSPACE 
                     INDUSTRIES ASSOCIATION

    Mr. Slazer. Thank you, Chairman Nelson and Ranking Member 
Boozman and the distinguished members of the Subcommittee.
    It is both an honor and a pleasure to be able to testify 
before you here today on the importance of NASA's space 
exploration program and the role of space in addressing 
America's national priorities.
    I am here on behalf of the Aerospace Industries 
Association, an association of over 300 aerospace companies 
representing over 90 percent of the U.S. industry. Our industry 
sustains nearly 11 million jobs nationwide, including many 
high-skilled, high-technology positions.
    Our organization was disappointed that the President's 
Fiscal Year 2012 budget proposes to underfund NASA by nearly 
$800 million below the $19.4 billion authorized level, a level 
agreed upon just last fall. Given the current fiscal 
environment, however, AIA believes the level of NASA funding 
proposed by the President, $18.7 billion, is the minimum 
required for its programs.
    When allocating this funding, AIA's position is that the 
funding distribution should reflect the budget priorities as 
outlined in the Fiscal Year 2010 NASA Authorization Act.
    Despite the clear bipartisan direction provided in the 2010 
Authorization Act and the 2011 year-end continuing resolution, 
substantial uncertainty remains over the direction NASA will 
take, most specifically on the new heavy lift space launch 
system. The impact of the long-delayed CR, the current budget 
climate, and the impending gap in America's ability to launch 
crews into space are causing ripple effects throughout the 
space industrial base and its highly trained workforce.
    Now that the Space Shuttle is being retired and the U.S. is 
paying Russia over $60 million a seat to get crew to the 
International Space Station, it is critical that NASA's 
exploration and crew transportation programs be adequately 
funded to remain on track.
    Two generations of Americans have never known a time when 
our nation was not engaged in human spaceflight. But let us be 
clear. This is a legacy, not an entitlement. Without continued 
investment, this could become the last generation of Americans 
to be part of a space-faring society.
    The on-again, off-again plans for Shuttle's replacement 
over the past decade have led to considerable workforce 
uncertainty across the entire industrial base, where firms are 
faced with wrenching decisions to let highly skilled personnel 
go due to lack of funding and/or clear direction. In addition 
to workforce impacts, fluctuating budgets and delays take their 
toll on schedule, production capability, and industry's ability 
to manage programs, sending mixed signals to industry and 
placing these complex space programs at risk of overruns or 
cancellation and jeopardizing the prior taxpayer investments.
    Interruptions or cancellations negatively impact large 
companies and can be catastrophic to smaller firms, often the 
only entities with unique abilities to produce small, but 
critical components on which huge portions of our economy, 
infrastructure, and national security depend.
    As an example, only one firm in the United States produces 
a chemical called ammonium perchlorate, which is necessary for 
solid rocket propulsion. It is used in the Space Shuttle solid 
rocket motors, other space launchers, and a wide variety of 
military systems. The Shuttle's retirement is already impacting 
a wide range of users, as costs rise due to this smaller 
business base.
    Whenever government budgets are cut significantly, U.S. 
space industrial capability shrinks. This capacity loss could 
potential leave the industry incapable of building civil or 
national security space systems in the future.
    Developing the aerospace workforce of the future is a top 
issue for our industry. NASA's space programs remain an 
excellent source of inspiration for our youth to study the STEM 
disciplines--science, technology, engineering, and 
mathematics--and to enter the aerospace workforce.
    AIA is committed to STEM education and, just last weekend, 
hosted over 600 students from all across the country at a 
rocket-launching competition, the Team America Rocket 
Challenge--TARC--in Virginia. While the students there are 
clearly motivated, for many students, the lack of program 
continuity is impacting the attractiveness of the aerospace 
professions.
    For example, in 2009, a survey was done where 60 percent of 
students in STEM curricula in colleges found the aerospace 
industry to be an unattractive place to work. One of the 
reasons for lack of interest in aerospace may be the 
uncertainty of NASA programs.
    Just as the recent Wall Street crisis turned young people 
away from financial careers, uncertainty and a lack of job 
security in aerospace also hurts recruitment. A commitment to a 
robust human space flight program will help attract students to 
STEM degree programs and hold on to the current workforce, 
while also benefiting national security space programs, many of 
which, while very exciting, are classified.
    A robust and sustainable space exploration program is 
essential to building our future economy. AIA believes that a 
fundamental driver of economic growth since the 1960s has been 
our Nation's investments in space-driven technology and 
inspiration. In fact, today, a number of new commercial space 
systems are being developed by entrepreneurs who have made 
their fortunes in information technology or other fields, but 
whose intellectual development was inspired during the Apollo 
era.
    In conclusion, the U.S. space program is at a critical 
juncture. While cutting the Federal deficit is essential for 
our economic future, cutting back on space investments is a 
penny-wise, but pound-foolish approach that would have an 
infinitesimal impact on the deficit, even as emerging world 
powers are growing their space capabilities.
    Instead of the embarrassing situation of buying crew 
launches from Russia 50 years after our first manned space 
flight, our nation's future will hopefully include one or more 
commercially developed American crew vehicles supporting the 
International Space Station and possibly new commercial space 
stations, along with a robust NASA multipurpose crew 
exploration vehicle and a heavy lift launch system for missions 
of exploration beyond Earth orbit. But this bright and 
inspiring future is dependent on our nation continuing to make 
the investments necessary to lead in space.
    I thank the Committee for their time, and I would be happy 
to answer any questions.
    [The prepared statement of Mr. Slazer follows:]

      Prepared Statement of Frank Slazer, Vice President, Space, 
                    Aerospace Industries Association
Introduction
    Chairman Nelson, Ranking Member Boozman, distinguished members of 
the Subcommittee. It is an honor and a pleasure to testify before you 
today on the importance of NASA's space exploration program and the 
role of space in addressing America's national priorities.
    I am here on behalf of the Aerospace Industries Association (AIA)--
an Association of over 300 aerospace manufacturing companies and the 
highly-skilled employees who make the spacecraft, launch vehicles, 
sensors and ground support systems employed by the National Aeronautics 
and Space Administration (NASA), Department of Defense, National 
Oceanic and Atmospheric Administration (NOAA), the National 
Reconnaissance Office (NRO), and other civil, military and intelligence 
space organizations. This industry sustains nearly 11 million jobs, 
including many high-skilled, high-technology positions. The U.S. 
aerospace manufacturing industry remains the single largest contributor 
to the Nation's balance of trade, exporting $80.5 billion and importing 
$27.2 billion in relevant products in 2010, for a net surplus of $53.3 
billion.\1\
---------------------------------------------------------------------------
    \1\ U.S. Census Bureau, Merchandise Trade Exports/Imports Quarterly 
2010.
---------------------------------------------------------------------------
    We appreciate the efforts of Congress to keep our commercial, civil 
and national security space programs healthy. We are pleased that 
Congress recognizes that space capabilities have increasingly become 
part of everyday life and that virtually every part of the U.S. economy 
has been touched by their applications.
    Space programs are essential to our national, technological and 
economic security. U.S.-developed space technology and its many spin-
offs have fueled our economy and made us the unquestioned technological 
leader in the world for two generations. U.S. economic and 
technological leadership enabled us to prevail in the Cold War and 
emerge as the world leader in a new era.
    AIA was disappointed that the president's Fiscal Year 2012 budget 
proposal underfunds NASA by nearly $800 million below its authorized 
level--$19.4 billion--agreed upon just last fall. Given the current 
fiscal environment, AIA believes that the level of funding proposed by 
the administration for NASA provides at least the minimum required for 
its important programs. It is therefore imperative that NASA receive 
the full amount of the president's Fiscal Year 2012 budget request of 
$18.7 billion. When allocating this funding, AIA's position is that 
funding for NASA should reflect the budget priorities as outlined in 
the NASA Authorization Act of 2010 as closely as possible.
The Need for Program Stability
    Despite the clear bipartisan direction provided in the NASA 
Authorization Act of 2010 and in the Fiscal Year 2011 Continuing 
Resolution (CR), substantial uncertainty remains over the direction 
NASA will take--most specifically on the new heavy-lift space launch 
system. The impact of the long delayed Fiscal Year 2011 CR, the current 
budget climate and the impending gap in America's ability to launch 
crews into space--after decades of ever increasing capability--are 
causing ripple effects throughout the space industrial base and highly 
trained space workforce in both private and public sectors.
    Fluctuating budgets and delayed programs take their toll on 
schedule, production and maintaining a skilled workforce--exacerbated 
by the winding down of the space shuttle program. This funding and 
programmatic instability may result in the permanent loss of this 
highly skilled, unique human capital by reducing the options for 
retaining this specially trained and skilled workforce. Our nation's 
aerospace workforce is a perishable national treasure; experienced 
aerospace talent, once lost, may be unrecoverable and new workers 
without this critical experience may take years to train. 
Unfortunately, the on-again off-again plans for the Shuttle's 
replacement over the past decade have led to considerable uncertainty 
not only at NASA--where civil service positions are protected--but 
across the entire industrial base where firms are faced with wrenching 
decisions to let highly skilled personnel go because of the lack of 
clear direction.
    At a time when the space shuttle is being retired and the United 
States is paying Russia over $60 million a seat to get crews to the 
International Space Station, it is critical that NASA's new programs 
for exploration and crew transportation be adequately funded to remain 
on track. Fifty years after astronaut Alan Shepard became America's 
first man in space, two generations of Americans have never known a 
time when we were not engaged in human space flight. But let us be 
clear, this is a legacy not an entitlement--without continued 
investment, this could become the last generation of Americans being 
members of a space faring society. In addition to workforce impacts, 
failure to stick to a space program funding plan makes it difficult to 
manage them effectively; sends mixed signals to an industry making long 
term investments; and places these programs at risk of overruns or 
cancelation--jeopardizing the investments already made by taxpayers.
    NASA's research and development efforts have consistently produced 
ground-breaking technologies with benefits for nearly everyone on the 
planet. Investments made in NASA have produced invaluable benefits to 
our national security, economic prosperity and national prestige and 
should be pursued as sound economic stimulus.
NASA Space Investment Benefits All Sectors, Including National Security
    The U.S. military and national security communities rely on the 
space industrial base to provide them with capabilities required to 
keep our Nation secure. Our space industrial base designs, develops, 
produces and supports our spacecraft, satellites, launch systems and 
supporting infrastructure. These systems are often produced in small or 
even single numbers. We need to keep this base healthy to maintain our 
competitive edge.
    Interruptions or cancellations negatively impact large companies 
and can be catastrophic to smaller firms--often the only entities with 
the unique abilities to produce small but critical components on which 
huge portions of our economy, infrastructure and security depend. As an 
example, only one firm in the United States produces ammonium 
perchlorate--a chemical used in solid rocket propellants including the 
space shuttle solid rocket motors, other space launchers and military 
applications. Retiring the shuttle will impact all these other users as 
costs rise due to a smaller business base.
    The U.S. military and national security communities rely on the 
space industrial base to provide them with capabilities they require to 
keep our Nation secure. Due to export restrictions on space technology 
and limited commercial markets for space systems, key elements within 
industry often must depend on stable government programs for survival. 
This two-way, symbiotic relationship means that in order to keep our 
overall national security strong, both sides of this relationship are 
critical.
    Given the lack of a large external space market, such as exists in 
civil aviation, if government spending pulls back from investing in the 
space domain--be it in NASA, the Defense Department or Intelligence 
Community--the industrial base will shrink accordingly. This will mean 
capacity loss and potentially leaves the United States incapable of 
building certain national security assets in the future.
Investing in NASA Benefits STEM Education
    Developing the aerospace workforce of the future is a top issue for 
our industry. NASA's space programs remain an excellent source of 
inspiration for our youth to study the STEM disciplines--science, 
technology, engineering and math--and to enter the aerospace workforce. 
In fact, the exciting periods of our space program history are 
reflected in the demographics of our industry and the influx of young 
workers they engendered.
    Unfortunately, the state of education for our young people is today 
in peril, including poor preparation for STEM disciplines. American 
students today rank 25th in math and 17th in science internationally. 
Low graduation rates of students in those fields and an overall lack of 
interest in STEM education contribute to a looming shortage of workers 
qualified to become professionals in our high tech industries.
    A recent study, Raytheon found that most middle school students 
would rather do one of the following instead of their math homework: 
clean their room, eat their vegetables, go to the dentist or even take 
out the garbage. This lack of interest extends into interest in 
aerospace. For example, in a 2009 survey 60 percent of students 
majoring in STEM disciplines found the aerospace and defense industry 
an unattractive place to work.\2\
---------------------------------------------------------------------------
    \2\ 2009 Experience Industry Survey.
---------------------------------------------------------------------------
    One of the reasons for the lack of interest in aerospace and 
defense could be the uncertainty of NASA programs. \3\ Just as the 
recent Wall Street crisis turned young people away from financial 
careers, lack of job security in aerospace will hurt recruiting 
efforts. The video gaming industry has captured the magic to attract 
young people, while space--despite its history and potential--has 
lagged behind. In some instances, our own employees discourage their 
children from pursuing careers in aerospace engineering due to the 
uncertainty of future programs and career prospects. A commitment to a 
robust human spaceflight program will help attract students to STEM 
degree programs and help retain the current workforce--which also 
benefits national security space programs, many of which are not in the 
open.
---------------------------------------------------------------------------
    \3\ 2007 National Academies: Building a Better NASA Workforce.
---------------------------------------------------------------------------
    While AIA and NASA are vigorously engaged in the ``supply'' side of 
the equation--exciting and inspiring students to study math, science 
and engineering--it's the ``demand'' side that needs Congressional 
action by providing the resources needed for visible and inspiring 
aerospace projects. These, in turn, provide young people with exciting 
programs to work on in the near future and on an ongoing basis. A 
robust and sustainable space exploration program is essential to 
building a future aerospace workforce capable of technological 
innovation and economic competitiveness.
Investments in NASA Have Increased Economic Prosperity
    Since its beginnings, NASA has been at the forefront in developing 
new technologies to meet the challenges of space exploration and much 
of what has been developed has had benefits in other areas. The list of 
NASA-derived innovations is impressive and wide-ranging, including 
memory foam cushions, video image stabilization technology, cordless 
power tools, power sources for heart defibrillators, ventricular assist 
pumps for heart disease, portable breathing systems for firefighters 
and many others. These NASA-enabled innovations are not just old 
history; for example, today the International Space Station is enabling 
us to develop new vaccines to protect people from Salmonella and MRSA 
pathogens by exploiting the organism's response to the weightless 
environment.
    Past NASA investments such as the Apollo moon landing program 
stimulated technology development like the miniaturization of 
electronic circuits. Electronic computers were first created during 
World War II, but miniaturization in the 1960s enabled the first 
personal computers to be created in the late 1970s and early 1980s--by 
a generation of inventors who grew up during the Apollo era. In fact, 
today a number of new commercial space systems are being developed by 
entrepreneurs who have made their fortunes in information technology or 
other fields, but whose intellectual development was inspired during 
Apollo.
NASA is a Source of National Pride
    And then there are space program benefits that don't have a dollar 
figure attached--those unquantifiable ``know it when you see it'' 
benefits that reap long-term rewards--increasing our Nation's pride in 
our abilities and garnering attention from across the globe. These 
include the already mentioned Apollo program, the space shuttle and 
International Space Station, numerous planetary spacecraft which have 
revealed the wonders of our solar system as well as spacecraft which 
have helped us understand our home planet and the universe. If there is 
one area where the world unquestionably looks to the U.S. for 
leadership, it is in our space program.
Conclusion
    The future of U.S. space investments are threatened due to our 
constrained fiscal environment. While cutting the Federal deficit is 
essential to assuring our economic future, cutting back on exploration 
investments is a penny-wise but pound-foolish approach that will have 
an infinitesimal impact on the budget deficit. Cutting exploration 
further threatens our economic growth potential and risks our continued 
national technical leadership overall--even as emerging world powers 
increase their investments in this important arena. China, India, South 
Korea and other rapidly developing economies are investing in space 
technology.
    In the decade ahead, our Nation's future in space will likely see 
one or more commercially developed American crew vehicles supporting 
the International Space Station and potentially new commercial space 
stations, as well as a robust NASA multipurpose crew exploration 
vehicle and new heavy lift launch system that will be getting ready for 
new missions of exploration beyond Earth orbit. But this bright and 
inspiring future is dependent on our Nation continuing to make the 
critical investments in programs and technologies needed to lead in 
space.
    In conclusion, the United States human spaceflight program is at a 
critical juncture. As a nation we can choose to continue our leadership 
in manned exploration and innovation or inevitably fall behind.
    I thank the Committee for their time and would be happy to answer 
any questions.

    Senator Nelson. And all of your written statements will be 
put in and made a part of the record.
    I would like to start with you, Dr. Chyba. I am just going 
to ask one question, and then I am going to flip it to you, 
Senator Hutchison.
    Dr. Chyba, you participated on the Augustine Commission, 
and one of their recommendations was the Flexible Path, which 
informed a great deal of the authorization bill that Senator 
Hutchison and I worked on. So how would you respond to the 
criticisms over the incremental approach or headlines that come 
out about a rocket to nowhere?
    Dr. Chyba. Thank you, Senator. I appreciate that question.
    As you know, the Augustine Committee made--presented a set 
of possible options. It didn't make recommendations among those 
options.
    But the Flexible Path was one of those options. And if you 
look at our analysis, as I am sure you have, sir, of the 
different possible options according to the metrics against 
which we evaluated them, Flexible Path contained the other 
options. It ranked best in virtually--along virtually every 
metric. So I am not surprised that, in the end, it was the 
option that was chosen.
    It also had the great advantage--or has the great advantage 
of providing the best budget profile. If you imagine a scenario 
in which you are going back to the Moon quickly, you not only 
have to develop the heavy launch vehicle, but you have to 
develop the landers. And the Constellation Program, that was a 
very capable, a very capable lander, the Altair lander. With 
the Flexible Path, you do not have to up front develop all the 
lander infrastructure along with the heavy lift vehicle.
    But the path, I think if it is not framed well, it is easy 
to level the criticism you just mentioned. But I think that, in 
the end, we have to think more carefully about what our future 
beyond low-Earth orbit looks like.
    I said in my brief comments that everyone looks back on the 
Apollo Program with admiration. But we also need to draw 
lessons not only from that program, but from the 40 subsequent 
years of human space flight.
    Twice since Apollo, there have been efforts made by U.S. 
Presidents to launch an Apollo-like initiative. George H.W. 
Bush--President George H.W. Bush announced his Space 
Exploration Initiative, but the budget wasn't there. That was 
an initiative to go to Mars. President George W. Bush had his 
vision for space exploration, which led to Constellation. 
Virtually immediately, the budget was below that to which 
Constellation was planning.
    They had been planning--they were planning against an 
ultimate steady state of $10 billion a year. That was lower 
virtually instantly, as well as not taking into account the 
costs of de-orbiting station, which they were going to have to 
do in 2016. And ultimately, with the President's--President 
Obama's budget, we were looking at something closer to $7 
billion a year.
    So I think we have learned from experience that that kind 
of Apollo vision, as desirable and inspiring as it is, is not 
working for us as a vision for the future for NASA. So we need 
a different approach.
    And I think the right approach is an approach in which we 
still keep our eye on the human move out into the solar system, 
on that inspiring vision. I want to get there as badly as 
anybody else. But we are not going to do it--our experience 
says we are not going to do it by announcing an Apollo-like 
program.
    What we have to do instead I think is twofold. We have to 
develop a kind of infrastructure--or you might even call it an 
``ecosystem''--in low-Earth orbit that has a variety of ways of 
encouraging the advance of human space flight and cost-cutting 
in human space flight. And that includes encouraging this 
robust commercial sector.
    But in order to do that, the government is going to have to 
provide demand-pull, where it is going to have to provide the 
station as a destination. And not for make-work, but for 
important experiments and developments that will further enable 
human space flight.
    And also, let us hope--let us hope--this remains to be 
demonstrated, but let us hope there will turn out to be a 
commercial market, both with respect to suborbital flights and 
perhaps also with an additional private station-like inflatable 
entity that people want to go to. That remains to be seen. But 
I think that the government demand-pull alone is probably 
sufficient to get that ball rolling.
    But simultaneously, because the commercial sector 
independently is not there yet, we have to have the heavy 
launch vehicle capability that is going to allow us to move out 
beyond low-Earth orbit. So I favor, I absolutely support the 
authorization bill's approach to this.
    This is not--Flexible Path is not a mission to nowhere. It 
is a mission to expand human civilization into our solar 
system, the most ambitious possible space objective. But it 
tries to do it in a way that I think has the hope of being 
sustainable, of actually providing us with that future.
    If you look back at some of the reports that have been 
issued in the last 40 years about our future in space, too many 
of them, in my view, included dramatic artist's renderings of 
what our future was going to look like, with rocket ships 
flying everywhere and astronauts in backpacks going in every 
possible direction. I respect and admire that vision, but I 
think that our citizens and our children need more than 
PowerPoint depictions of what that future looks like, and I 
think Flexible Path is our best hope of obtaining that future.
    Senator Nelson. Thank you, Dr. Chyba.
    Senator Hutchison?
    Senator Hutchison. Well, thank you, Mr. Chairman.
    And I appreciate that very much because we tried to make 
the balance right within our budget constraints of a flexible 
way forward that does support private innovation, but also 
keeps the base of our expertise and what has already been 
proven also as an ongoing effort. And we hope we got the 
balance right.
    But here we are. The Chairman and I and Senator Boozman are 
all very concerned about the delays, the indecision, the 
seeming unmotivated approach to modifying contracts so that you 
keep the industrial base. From 14,000 contractors and civil 
servants that have been in the Space Shuttle workforce, we are 
now down to about 7,000.
    So we have cut our expertise and workforce in half, but 
what we were trying to do in the authorization bill was create 
a new vehicle where these people could be transferred and keep 
their expertise rather than have them leave and not be able to 
get them back.
    I would ask Dr. Chyba, Mr. Slazer, and either of you as 
well--maybe, Captain, you as well--what can we do to motivate 
real movement and decisiveness in NASA that does keep the basic 
workforce for the goals that we all have? Because we share 
everything that you have said today, and yet have the private 
sector continue to innovate, but to keep the balance that we 
have tried to create and see some success?
    I would just ask any of you who would want to step up to 
the plate. Because we are getting fairly frustrated.
    Mr. Slazer. Yes. I don't have a good answer for what the 
right technical solution is for NASA's launch vehicle. They are 
working that with a lot of people in industry, and they have 
undoubtedly got several workable options to proceed with.
    But one thing I will give you from my experience watching 
the Space Station Program in the 1990s was that after it was 
redesigned for the umpteenth time, after about a decade of 
winning by one vote on the floor of the House to keep the 
program alive, it was decided to fund the Space Station at a 
fixed level of about $2 billion a year from about 1993, the 
early part of the Clinton administration. And it pretty much 
kept to that development funding level.
    And by keeping to that level, although development programs 
really want to look like a bell curve, they don't--you know, 
optimally, you do them most efficiently like a bell curve. But 
if you know what your funding is going to be and if an effort 
is made by the White House and by Congress to protect that 
flat-line budget to allow them--protect a budget to allow them 
to manage to it effectively, we have this remarkable asset that 
is in space today.
    And here it is less than 6 months after the authorization, 
and the President's request did not reflect the authorization. 
And then, on top of that, the Shuttle pension came in as a one-
time expense. Well, we had a one-time expense prior to this, 
back in the 1990s--actually, back in the 1980s, after the 
Challenger was lost, where we made a one-time appropriation to 
cover funding the Endeavour. And that came in under budget, and 
the rest of NASA's program was not disrupted at the time.
    If you throw disruptions into the funding plan, it makes it 
more difficult for NASA. It makes it more difficult for 
industry, and it makes it longer and more frustrating at the 
end to get a program.
    So I don't know what the right answer is, as far as the 
NASA program. I know you have got a letter you have sent to 
NASA to try to figure it out, what their response is on that. 
But I will tell you that once a plan is agreed upon, sticking 
to that funding profile is the most important thing you can do 
for them and for industry.
    Senator Hutchison. Do you think that we still have the 
expertise in the employees that are left? There's been another 
round of lay-off notices following when the Shuttle shuts down, 
do we have enough to fulfill the NASA part of the mission, or 
are we just getting bled to death so that all we will have is 
the private sector?
    Mr. Slazer. I guess my observation would be that many of 
the people that are being let go now are on the operations 
side, who are very expert at operating the Space Shuttle 
system. While we certainly need to have operational 
capabilities for new systems, one of the critical things--and 
it is the small tip of the spear, if you will--are the design 
engineers and scientists that can actually develop new systems.
    And I think on that level, we may be doing pretty good 
because, right now, we have got at least three different 
commercial cruise systems being developed. We have got the 
Orion multipurpose crew exploration vehicle, and there are a 
number of activities still tied to Constellation relative to 
the launch vehicle that are going, as well as the upgrades 
being made to the EELV Program.
    So I wouldn't say we are super healthy right now, but with 
the program we have got going now, at least that pointy end of 
the spear is there. But we need to figure out that transition 
of workforce because operational expertise is important as 
well. You need to be able to run these systems.
    Senator Hutchison. Well, we have one more Shuttle. Is there 
anyone that is concerned--who is concerned about whether we 
still have the capability to do the last Shuttle, which is our 
cleanup Shuttle, to make sure we have everything on the Space 
Station that a Shuttle can take? Because when we go to Soyuz, 
we will not have much capability to take things to the station.
    Captain Culbertson: Senator, I think I can address most of 
your question. I am pretty close still to the people at KSC, 
JSC, the other NASA centers, and talk to them frequently about 
how things are going and what is happening with the missions 
and the countdowns, et cetera.
    Your first question was, do we still have the expertise 
within NASA to safely conduct the missions? And my answer is 
yes. There are a lot of really, really good people still there.
    It is unfortunate that people are being laid off. And it is 
not just in the government workforce. In fact, the major hit is 
to the contractor workforce. But these are people who have also 
been in the program for decades, who have the same corporate 
knowledge and expertise as what we attribute to NASA as a 
whole, and they are basically the arms and legs, and in many 
cases the brains, of what goes on.
    So that is an issue, and it is a concern. It is one that we 
have seen coming for a while, and hopefully, people have done 
the best planning they could, both on a personal and 
professional basis, to prepare for these changes.
    But the remainder of the workforce on both the government 
and industry side that I see is still extremely competent, 
still capable of leading, still capable of making the right 
decisions, and conducting operations safely, as well as moving 
out on the programs that are currently in the authorization 
bill. I believe that we have the people on both sides of the 
table to execute what has been asked of the country.
    We do need to continue to have bipartisan support on that. 
One of the problems has been the continuous debate over what 
many would see as partisan issues over exactly what the details 
of NASA's direction should be. And I think we need to get that 
behind us and decide that we now have a plan that can be 
executed and that people need to move rapidly on it.
    It will be a mix of commercial endeavors and government-led 
endeavors and I think we will need that going forward.
    We need to continue to focus on the technological 
capabilities of the plans and teams that are working on them. 
And the business cases and business experiments that might be 
out there, we need to be cautious about. But by the same token, 
we need to encourage access to space by many, many people and 
many, many companies.
    As I said before, the measure of whether we are remaining a 
great nation or not is whether we can get through this 
difficult time and maintain our leadership in space. It is 
going to require some hard decisions, and it is going to 
require commitment, bipartisan commitment from both the 
Congress and the government leadership.
    Senator Hutchison. I think when you are referring to 
bipartisan, the Congress is speaking very forcefully of one 
mind, bipartisan. However, Congress and the administration, I 
think, is what you are referring to as not being in sync, which 
is clear.
    Captain Culbertson. I am just a witness.
    [Laughter.]
    Senator Hutchison. Well, I think when you said----
    Captain Culbertson. Yes, ma'am.
    Senator Hutchison.--what we need is bipartisan, a 
bipartisan effort, we had one.
    Captain Culbertson. Yes.
    Senator Hutchison. We passed an authorization bill 
overwhelmingly.
    Captain Culbertson. Well, and this committee particularly 
was a leader in doing it in a bipartisan fashion. And I think 
the whole government needs to take a lesson from that.
    Senator Hutchison. I agree with you. Thank you.
    Mr. Pulham. Senator, if I may, I share your frustration in 
this regard. Whether you support the Flexible Path or not, the 
fact is that we have an authorization. That authorization sets 
out where we are going and what level of funding there is going 
to be for each component of where we are going.
    And NASA has not always had that. They have not always had 
an authorization bill. And the Congress has taken great pains 
to set forth what is now law that says this is what NASA should 
do.
    And I am just astounded that someone from NASA isn't 
sleeping on a couch in each of your offices and working this on 
a daily basis. Because it gives NASA the opportunity to get the 
enterprise focused around what the law of the land says will be 
done.
    So I think the letter that you have sent to the 
Administrator is a good step. I think some additional meetings 
are clearly called for to make sure that the agency is 
implementing what they have given to implement.
    Senator Hutchison. Thank you.
    Dr. Chyba?
    Dr. Chyba. Senator, if I may, I will make one specific 
comment that is not as broad-reaching as my colleagues' 
comments. The Subcommittee has just been given a commercial 
market assessment from NASA that was requested in the 2010 
authorization bill. There is a one-page appendix, Appendix B, 
in that market assessment that I would suggest would prove very 
useful to examine in greater detail.
    And that is an appendix in which the agency looks at the--
does a cost evaluation of the Falcon 9 spacecraft. And they 
cost out how expensive it would have been for NASA to have 
built that rocket. And with two different assumptions, they get 
an answer of $1.7 billion at the low end and $4 billion at the 
high end. They also state that they examined SpaceX's costing 
of it and have confirmed it, and it cost SpaceX $400 million.
    So that, to me, suggests two things. One is that--well, if 
that is real, if that difference is real, that is encouraging 
about the future. And it would be good to learn as much as one 
can from that for how to do things differently in the future. 
It may mean that, ultimately, though not in the near term, the 
commercial sector could play a much more ambitious role.
    But the other thing that I think one would want to 
understand in some detail would be why would it have been that 
much more expensive, somewhere between 4 and 10 times more 
expensive for NASA to do this? Especially at a time when the 
claim is that--when the statement is that--one of the issues 
facing NASA right now is how to develop the heavy launch 
vehicle within the budget profile that the Committee has given 
it?
    I would hope that that kind of examination could be done in 
a cooperative way. You know, let us roll up our sleeves 
together and figure out what changes we might make. Because 
there is an implication there that there is a much less 
expensive way of doing things. Perhaps that will evaporate 
under closer examination, but certainly, one would want to 
understand that.
    Senator Hutchison. Well----
    Mr. Pulham. I would like to associate myself with my 
colleague's remarks, and I would like to further suggest that 
the government has not always been terrific at estimating 
markets.
    And I say that from the point of view of somebody who 
worked on the EELV Program in the early years. And it is pretty 
astounding how bad the estimates were for what was eventually 
going to happen with EELV.
    So I would encourage the Committee to look toward a 
disinterested party, whether that be the GAO or an outside 
organization, to get an objective view on these costs.
    Mr. Slazer. As someone who also worked on EELV, I just have 
to intercede. The industry was also part of that market mis-
estimation at the time. But EELV itself, although it has not 
met its cost objectives as well as had been hoped, was pretty 
amazing if you look at it from the perspective of how the 
government managed that program.
    Between the two companies--and most of the money that went 
into the development work was money put in by Lockheed Martin 
or Boeing--less than $5 billion was invested. We wound up with 
two families of launch vehicles, brand-new LOX hydrogen main 
stage engine, the first one that had been built since the 
Shuttle main engine back in the 1970s.
    We wound with a brand-new rocket factory. We wound up with 
two new pads--actually, three new pads and a capability that 
has not had a failure yet.
    So if you want to look at how programs can be managed with 
government involvement, but still produce tremendous results 
affordably, EELV does have some lessons, I think, out there.
    Senator Hutchison. Well, I think that your points are well 
taken. And I think there is a future in the private sector, 
which is why we have created the balance in our bill. But we 
also have to have the reliability, the backup systems, and all 
of the extra efforts that must be made when you are talking 
about human space flight.
    And so, I think going at a measured pace is what we ought 
to be doing and assuring that we are not going to be moving so 
fast that we end up not having something that is reliable. And 
also, that we have all of the safety and backup systems that 
would be required.
    And that we don't have big cost overruns that end up being 
more expensive in the long run because you are at a place where 
you don't have backups. You don't have anything that is an 
alternative. And something doesn't work in the one you have, 
and it was even mentioned within NASA that, oh, you know, we 
will put it all into the private sector, and then we will bail 
it out when we need to. Well, that is not a good business model 
either.
    So I think the balance that we struck is what we would hope 
would be a measured and safe way forward, and also one that 
could produce the--I mean, if it really is a difference of $400 
million versus even $1.5 billion, then that is what we ought to 
be looking for.
    Thank you.
    Senator Nelson. Thank you, Senator.
    And the authorization--just to build on your comments, the 
authorization bill requires NASA to look for these types of 
efficiencies that we have been talking here--better 
acquisition, better contracting--with an eye to bringing down 
the costs.
    Senator Boozman?
    Senator Boozman. Thank you, Mr. Chairman.
    Mr. Pulham, you mentioned in the opening of your testimony 
a number of measures, a number of goals. I think one of those 
was to inspire the world. You might elaborate on that again.
    But also I would like for you to comment in regard to how 
we are doing as a nation, right now, in regard to those things, 
which I think we all agree are very important.
    Mr. Pulham. Well, thank you, Senator.
    The three key words in our mission statement are ''inspire, 
enable, and propel.`` And the inspiration part is a lot easier 
to do when you have a visible, vibrant program, as opposed to 
when you really don't know what is coming next.
    If you have that program, that then enables a lot of things 
to happen. It enables the technologies to evolve. It enables 
people to create programs that engage students and teachers. It 
enables all Americans to see what is going on, take some pride 
in it, and be supportive of whatever amount of money we are 
putting into the program. And as my colleagues have noted, it 
is consistently Americans think we are putting an awful lot 
more into this endeavor than we have.
    And then the third thing is to propel. You want to propel 
our nation in terms of its global leadership. You want to 
propel our scientific base, our engineering base. You want to 
propel our young people into programs in college that are hard 
programs, and to get them there without requiring mathematical 
remediation and to maintain that intellectual base and that 
intellectual capital that I talked about.
    And I am not sure if that quite answers your question, but 
I really think it is terribly important that we have a vibrant 
space program. The International Space Station, as Frank knows, 
is very near and dear to my heart. I worked on that program 
when I was with Boeing down in Huntsville, Alabama. And the 
fact that there is not more known--that it is not more known 
that that program is up and running and that there is a 
tremendous amount going on there is detrimental in terms of our 
being able to support other space programs as a country.
    I think if people don't get it that there is something 
wonderful that has happened from this, they have a hard time 
believing that something else wonderful is going to happen. And 
so, really leveraging that International Space Station is 
important.
    I will say that at the level of teachers and students--and 
we have an academic branch to our organization--they do get the 
whole International Space Station thing once you start talking 
with them. If they come off the street into your classroom, 
they may not have any knowledge of it whatsoever. But when you 
start working with them, they latch onto it. They build 
programs around it.
    We have taken over a failing inner-city school and turned 
it into an aerospace academy, and the kids in that school use 
the latest aerospace software to track satellites, calculate 
when the International Space Station is coming overhead. And I 
guess my worry is that however we implement this Flexible Path, 
we do it in a way that people can see that something exciting 
is coming.
    Senator Boozman. Thank you very much, and I agree totally.
    Dr. Chyba, I know you worked very hard on the commission, 
and you guys did a good job and explored a lot of different 
pros and cons in coming up with your decision. And you have 
alluded to this, but for the record, would you agree that an 
important element of any heavy lift vehicle and crew module 
would be the degree to which they maximize the use of previous 
investments in vehicle developments, propulsion systems, and 
infrastructure?
    Dr. Chyba. Thank you, Senator.
    I should make a distinction between the Committee's work 
and my own view in that respect. As you know, the Committee 
simply presented options. So while it certainly factored into 
its analysis of different options as an explicit one of its 
metrics, that type of question that might have been called 
sustainability, but I might be misremembering the name, there 
was an explicit metric that looked at--well, there was a 
workforce metric, for example. The committee presented options. 
It didn't make recommendations.
    My own view is that especially given that we are in this 
delicate position now of trying to move toward an expansion 
into the solar system, while we have to simultaneously maintain 
and foster this largely commercially driven, filling in behind 
NASA's spearhead, I don't think we have much choice currently 
but to build as much as possible on existing capabilities. 
There may be a price to that.
    In the long run, that could mean that we have a system that 
costs less up front to develop but has higher recurring costs 
in the future. I hope that the way to mitigate that--that there 
would be a way to mitigate that, which would be to make the 
system as evolvable as possible. I think you already see that 
in the way that the use of the Shuttle main engines are being 
discussed for that heavy lift vehicle, that they will be moved 
toward a kind of disposable version of the Shuttle engines that 
would be less expensive.
    So as long as that system is evolvable, so that there is at 
least a prayer of bringing down recurring costs, I think that 
is very much the way to go. In fact, I don't see how we have 
much choice, given the budget reality.
    Senator Boozman. As a commission member, somebody that 
worked hard and went through a number of different options, 
finally choosing the Flexible Path option, I am curious. The 
authorization bill worked hard in trying to push that down the 
road in order to get done.
    I am a little bit confused about the administration's path. 
And being somebody that is new to the Committee and working 
hard to understand, the paths that you all tried to explore, 
where do you see them going as apart from the authorization?
    Dr. Chyba. Well, thank you.
    And as you stated, the choice of Flexible Path was not our 
committee's. I think it was the----
    Senator Boozman. Right.
    Dr. Chyba.--choice of the Subcommittee. And I also think 
that as I read the President's remarks, I think it was 
essentially what the administration was picking.
    Beyond that, since I am here in my personal capacity, and 
the Committee made recommendations to the administration and 
ceased to exist in 2009, I am really not in a position to 
assess the motives of the administration, any more than I am to 
assess the motives of members of the Committee.
    Senator Boozman. No, again, and I don't mean the motives is 
all. I am just saying that you are in a position. We have got 
of all these different options. One was chosen. If we move 
along the path as they would like to do, by their actions, 
where do you see that going? What is that path?
    Dr. Chyba. Well, without trying to speak for the 
administration, again, just speaking of my own impression of 
the Flexible Path. You know, it remains to be proven that we 
can really do this. That is the first thing I would say.
    I very much hope that we can because I very much want to 
have a human future in space beyond low-Earth orbit. But we 
haven't done this successfully before, where we have kept 
flying. We are maintaining the station. We are developing 
capacity to continue launching. We are going to have a gap 
where we can't do that. And we are developing a heavy lift 
vehicle and trying to go beyond low-Earth orbit with the kind 
of budget that we are talking about.
    So the first thing if you ask me about where is it going, 
the first thing we are going to find out is can we really do 
it? And that, to me, seems like an enormous challenge. And it 
is going to require I think the Committee's phrase might be 
``all hands on deck'' and, I hope, an unprecedented kind of 
cooperation between the Hill and the administration and NASA, 
where the sides are not recalcitrant and they are not 
hectoring, but they are rolling up their sleeves and working 
together on an important national objective.
    It seems to me that given the budget constraints, the first 
thing that we can hope for with heavy lift is that we do things 
in what is called cislunar space, that we get beyond low-Earth 
orbit, but we don't initially get farther than the Moon. Not to 
land there, because that is a much more ambitious undertaking, 
but we just demonstrate once again that with our new system we 
can get there.
    We would need to develop--and assuming that Orion is the 
vehicle that we are doing that with--we will need to develop an 
airlock, so that astronauts can leave the capsule. We will need 
to develop some kind of deep space habitat, so that it would be 
a modest module that could accompany Orion so that astronauts 
on longer missions would have more space.
    And then, I think we have to look for objectives that are 
new and interesting, that maximize these other benefits, 
including scientific knowledge. Not kidding ourselves that this 
is the best way to go about it scientifically, but if you are 
going to do it with humans, let's maximize these other 
benefits.
    And I suspect that it is likely that those next missions 
would be a mission to a near-Earth asteroid. That would be 
unprecedented in mission duration and ambition. And it also is 
related to another important objective, which is protecting 
human civilization, because we know that these objects 
occasionally hit the Earth. We had a 15-megaton explosion in 
Earth's atmosphere that flattened 800 square miles of forest in 
1908 over Tunguska in Siberia. These things happen. And they 
have happened this--well, previous century, but 100 years ago. 
Learning more about asteroids is in everybody's interest. So I 
think that makes sense as the next objective.
    And then beyond that, there is another much more ambitious 
hurdle, which is to start thinking in terms of missions that go 
as far as Mars. And I would hope that the longer-duration 
asteroid mission would proof the systems that we would need to 
get out that far, again without having to pay up front for the 
enormously expensive capacity of actually landing.
    You know, I think Flexible Path is clearly kicking that can 
down the road because it is not clear how we are going to pay 
for the development of those much more expensive systems, given 
the current budget. And I think there is a hope there that down 
the road somehow that changes.
    There is also a kind of off-ramp in Flexible Path. It is 
called the ``Flexible'' Path. If the Nation decides that 
returning to the surface of the Moon is an important objective, 
and that could be for a variety of scientific or political 
reasons, the point of the Flexible Path is to get the necessary 
infrastructure in place--everything short of the landers 
themselves--so that we could then, if we need to, make that 
decision and divert the Flexible Path toward the Moon. That is 
why it is flexible.
    Senator Boozman. Thank you, Mr. Chairman.
    Senator Nelson. That was a very clear fleshing out of the 
concepts behind the Flexible Path. And I appreciate you putting 
that on the record, Dr. Chyba.
    And I appreciate also you drawing the attention to Appendix 
B of NASA's report. And I will just quote from that appendix 
where, as you had said, that they had said that--in this 
particular case, they used the Falcon 9 as the example of a 
commercial rocket being developed for $400 million. And I 
quote, ''Thus, the predicted cost to develop a Falcon 9, if 
done by NASA, would have been between $1.7 billion and $4.0 
billion.``
    And they go on to say SpaceX has publicly indicated that 
the development cost for Falcon 9 launch vehicle was 
approximately $300 million. Additionally, approximately $90 
million was spent developing the Falcon 1 launch vehicle and so 
forth, which brings it up to the total that you were talking 
about of $400 million.
    Now, if this bears out that there is that much difference, 
then it certainly corroborates the Flexible Path and the 
philosophy of the authorization bill. And so, to Mr. Pulham and 
Mr. Slazer, whereas it appears in the past that we have seen a 
decline in American competitiveness in the commercial 
marketplace, with Mr. Culbertson's company as another example, 
and many others out there competing, they are going to be 
launching cargo to the International Space Station on American 
rockets, and it is going to start this fall. So tell me, Mr. 
Pulham and Mr. Slazer, what do you think is the possibility of 
the turnaround of increasing our share of the commercial 
marketplace?
    Mr. Pulham. Thanks, Senator.
    I think it is actually very good. I would start by 
observing that I have never had any doubt that commercial 
companies could do things cheaper than the government can. I 
think when you look at how NASA operates, it operates under a 
lot of requirements that a commercial company does not have to 
meet in terms of its oversight, its many political masters, its 
historic requirements around issues of management and safety.
    I am very, very pleased with how SpaceX has done. As a 
matter of fact, the Space Foundation awarded SpaceX its Space 
Achievement Award for 2010 at our National Space Symposium just 
a little bit more than a month ago.
    I think this does pose some interesting scenarios for us. I 
think that a successful SpaceX, or successful Virgin Galactic, 
name one, I think those are game changers for us. I think that 
they fundamentally change the ability of our foreign 
competitors, if you will, in the launch business. But that 
assumes, of course, a fair playing field.
    The current problems we have with ITAR and export controls 
do create an artificial barrier that says that until those are 
fixed, it does still become difficult for a company like SpaceX 
to market overseas because those overseas payloads coming to 
the United States to be launched triggers an ITAR event that 
adds expense and may either price them out or simply keep them 
out.
    I am not sure if that is the answer to your question. I 
would also, with your indulgence, just make a comment on the 
NASA evolving various things like the SSME and others for the 
heavy lift. I think that is fine if we agree that what that 
heavy lift vehicle is going to do is enable us to do other 
things that require new technologies, innovative thinking, and 
so on.
    The concern that I have is--one of the things that the 
Apollo Program did was it asked us to do difficult things that 
had never been done before, and that resulted in a lot of 
invention, a lot of new technology. If we are depending on 
existing technology and not interested in developing new 
technology, I think that is something that bears a look at as 
we implement this plan.
    Senator Nelson. Well, thus, the flexible path, which Dr. 
Chyba outlined. In the NASA authorization bill, you have a 
flexible path going forward to get components up into Earth 
orbit. And then, depending on what your particular goal is, at 
that point you develop the technologies to get there.
    We are not going to Mars or likely to an asteroid at this 
point with the technologies that we have. It is going to 
require all kinds of new things.
    Captain Culbertson, since the subject of this hearing is 
the contributions of space to national priorities, you mention 
all the nations that are participating in this gargantuan thing 
that is on orbit called the International Space Station. And 
you mention also this extraordinary relationship that we have 
with the Russians that was born out of the beginning of the 
thaw of the Cold War when an Apollo spacecraft rendezvoused and 
docked with a Soyuz spacecraft in 1975 in the middle of the 
cold war.
    And they lived 9 days together in space, and that is an 
extraordinary human interest story to see the relationship of 
those three American astronauts, now Deke Slayton deceased, and 
the two Soviet cosmonauts. But you chronicled an additional 
comment about this relationship evolving into what we see 
today. Would you want to give us some more comments for the 
record as a contribution of space?
    Captain Culbertson. I would be glad to. Thank you.
    When the Shuttle-Mir Program was envisioned, it was an 
offshoot of the decision to bring the Russians into the 
International Space Station as a partner. The Mir was already 
on orbit. It had been there since 1986. They had operated it 
almost continuously during that time with two or three crew 
members on at a time.
    They had learned to operate the station basically. We had 
not yet flown a station other than Skylab, which was operated 
for a maximum of, I think, 87 days at a time. And so, it was an 
opportunity for us to participate with someone who was already 
doing this, but also because they were being brought in as an 
important partner, providing significant segments of the 
station that would allow it to be viable and operate, it was 
important for us to learn to work with them before we started 
putting pieces together in orbit.
    So, together, we built a docking module, which allowed the 
Shuttle to dock so that we could more easily attach to the Mir 
Space Station, more easily transfer people. We developed 
logistics capability within the Shuttle to carry not only our 
crew members, but also the cargo associated with their 
experiments, and also to supplement what was going on on the 
Mir as a cooperative partner.
    To do all of that, we had to learn each other's way of 
doing business, each other's way of doing engineering, each 
other's way of doing operations. We had to basically live in 
each other's control centers, each other's factories and, 
eventually, visit each other in their homes.
    And at the working level, at the management level, it 
became a very close-knit, tight team that was able to deal with 
almost any problem that came up, including the life-threatening 
ones that occurred during the program. That literal trial by 
fire allowed us to develop the trust that was necessary to go 
from there to the International Space Station because, at this 
point, we do depend on each other.
    Neither of the two countries could go it alone on ISS at 
this point. And the other partners depend on both of us to do 
our part to keep it working and to keep it as a valuable 
research station. And so, that development of that relationship 
was critical going forward.
    If I could expand on that just a little bit, the 
relationships that we are developing now within this country in 
the commercial world in relation to what NASA is doing is a 
development of something critical that goes beyond the 
technology and the hardware that is being built. And 
understanding how to bring commercial practices to development 
of spacecraft and rockets that will make things more cost 
effective, but bring in the lessons learned of NASA, the 
oversight in the key areas of the decades of flying people in 
space, of flying hardware in space, and combining those two 
makes it a very valuable experience.
    And so, we cannot overlook the relationship and operational 
capabilities that we are developing as we are going forward. 
And I would like to see that continue.
    And so, engaging with the Russians, to finish answering 
your question, was critical to being successful in the station. 
We learned a lot about each other. We overcame politics that 
still, to this day, sort of overlay everything but allow us to 
make a phone call between program managers and make a decision 
in a few minutes on what needs to be done in the next hour to 
keep the crew safe.
    Senator Nelson. And we often forget that when we talk about 
the contributions of space to national priorities, which you 
all have very eloquently outlined, the technological spinoffs 
and so forth. But the one that Captain Culbertson has just 
mentioned was and has been invaluable.
    Yes, sir?
    Captain Culbertson: If I could just add, the first time two 
components were put together, one was a Russian, one was an 
American component. They had never touched each other prior to 
going into space. And they were attached going 18,000 miles an 
hour in a vacuum and fit perfectly the first time.
    And that has been true of every component between our 
various countries that we have taken up there because we have 
worked on, first of all, the trust and, second, the 
communication that allows us to understand each other's 
capabilities, each other's hardware.
    And it allows us to know more about each other as a people, 
too, both ourselves and the people we are working with. And I 
think that, in itself, helps make us good leaders, and it helps 
keep the peace where we can in the world.
    Senator Nelson. Well said.
    Senator Hutchinson?
    Senator Boozman?
    Senator Boozman. Thank you, Mr. Chairman.
    Mr. Slazer, what actions do you believe that Congress could 
or should take that would enhance the ability of the U.S. 
aerospace industry to continue its record of supporting the 
nation's technological superiority, innovation, and 
competitiveness in the global economy?
    Mr. Slazer. You know, to follow up on Elliot's earlier 
comment relative to exports, satellites were put on the 
munitions list, one of the few--maybe the only thing, except 
for overt weapons, that was ever put on an munitions list. And 
its regulation has caused or helped cause the decline of U.S. 
market share in commercial satellites from about 70 percent 
down to 25 percent. It is up a little bit lately, but it is 
still well below its historic norms.
    On the component level, when I used to work on Delta launch 
vehicles, we would have clamp bands from Sweden. We would have 
nozzle extensions from France. Other competitors would have 
fairings from Switzerland and other countries in Europe.
    We don't export. We have such a difficult time exporting 
hardware. And some of the suppliers that we have in the U.S. 
industry are the best in the world and could compete, but for 
the difficulty of getting things to be exported.
    And so, I think that when we look at a national export 
initiative, you have to look at where is your sustainable 
industry, where do you really excel, and try to make those 
industries excel. We excel in aerospace and overall aerospace. 
I should note the fact we are the largest contributor to the 
balance of trade and in the surplus category about $53 billion 
last year.
    But it could be more. It could be more on the space side, 
if we could look at the roles--and the other thing I would 
offer is that that would make us better in two other ways. One 
is to maintain an industrial base requires a certain level of 
activity. To the extent that exports could be part of that 
level of activity, it would make it easier for the Air Force 
and for NASA to not have to spend so much for what they get 
from the industry or to try to maintain capabilities.
    It would also make us better competitors. One of the 
reasons why our IT industry is as good as it is, is there is a 
lot of competition. Boeing is better because there is an Airbus 
than if there wasn't because the two of them are constantly 
trying to outdo the other.
    And so, by having an industry that is allowed to compete, 
we wind up with lower costs. We wind up with an industry that 
is forced to be better. And I think that is one of the best 
things we could do is reforming our export regime.
    Senator Boozman. Very good. Thank you.
    Mr. Pulham, what role does NASA's munitions play in 
America's leadership in space?
    Mr. Pulham. Senator, I think there's a number of things. 
Clearly, as I discussed in my remarks, the impressiveness of 
what we have done, contributing to our soft power and our 
leadership as a nation--you know, whether it was the Apollo-
Soyuz, whether it was Shuttle-Mir, you know, when we do these 
things, there are technical aspects. There are financial 
aspects. But the message that we send around the world about 
what kind of a nation we are, that we are a nation of leaders, 
that we are a nation of great technological prowess, really 
causes the world to view us in a way that they would not if we 
could not do those things.
    And so, I think the contribution of NASA to soft power is 
just paramount. But I also think the contribution that NASA 
makes to the intellectual capacity of this nation is not 
totally and thoroughly understood and I wouldn't pretend to 
totally and thoroughly understand it, but I do know a few 
things.
    That is that students, whatever grade level--and believe it 
or not, we are teaching space in pre-K now--they grasp what is 
going on in space, they grasp what NASA is doing, and then they 
get very excited about it, and that changes fundamentally the 
way that they look at the study of things like science and 
engineering and mathematics.
    We have referred to this Jack Swigert Aerospace Academy. We 
have students who are--94 percent of those students are on free 
or assisted lunch. Most of them have never touched a piece of 
technology before. And now they come in, come down to our 
laboratory, and use space sensors and space software to measure 
distances on their campus and figure out where everything is in 
relation to their own lives.
    The other part of the education piece then becomes what do 
we do at the college level? And I think one of the things that 
NASA is not greatly appreciated for is the amount of investment 
that NASA makes in the university research and graduate studies 
at our universities and how that influences some of the career 
decisions that people make when they are in graduate and 
postgraduate school.
    Our organization is international, but we are headquartered 
in Colorado. And I am conscious of the fact that the University 
of Colorado, of all institutions, has traditionally been one of 
the largest recipients of NASA research dollars. And because of 
that, we have developed a center of excellence in the northern 
part of the state in satellites, in sensors, in manufacturing--
aerospace manufacturing, and so on.
    And so, I think NASA plays a real, real important role. And 
I think we need to work on ways to have whatever NASA is doing 
be more visible to the American public so that the American 
public can embrace all the benefits of this activity.
    Senator Boozman. OK. I want to follow up with asking you 
about if we don't aggressively move forward and begin work on 
the heavy lift rocket and the Orion crew, what affect that is 
going to have in our international space leadership.
    And then, secondly, Dr. Chyba, you can think about this, 
because what you alluded to I think is so important, Mr. 
Pulham. If you would comment, Dr. Chyba, about your perspective 
from an academic experience what you believe is the best way to 
attract students and interest them in the fields of study that 
are needed for maintaining a strong and effective space 
exploration program.
    Mr. Pulham and then Dr. Chyba.
    Mr. Pulham. Thank you, Senator.
    I think that in terms of the importance of having a new 
heavy lift vehicle, you really only need to look as far as the 
James Webb Telescope Program to understand where we are. The 
James Webb Telescope, when it is finally put into orbit, will 
be put into orbit on a European vehicle, the Ariane V, because 
that vehicle is capable of taking the Webb telescope and 
putting it in insertion to get it to the Lagrangian point where 
it is going to be stationed.
    Having that kind of capability, that kind of upmass of a 
large vehicle really enables you to do things we can't do now. 
You know, the Space Shuttle can carry a huge module of 40,000 
pounds or so, but you know, if you had a capability of putting 
200,000 pounds in LEO or taking that 80,000-pound payload and 
putting it on a trajectory to the Moon, that is a real game 
changer.
    And so, I think it is important for us to get that heavy 
lift capability just as quickly as we can.
    Dr. Chyba. Senator, thank you.
    There are a few comments I would make. One is a broad one 
that over my career as a planetary scientist, I have had the 
opportunity to talk to kids at all levels from first grade up 
through, of course, graduate students. And so, my first comment 
is, in effect, a very broad one, and it is something I noticed 
when I started doing this when I was in my 20s, was that there 
was enormous enthusiasm for space. And I see that in my son's 
daycare currently--enormous enthusiasm for space when kids are 
young.
    And somehow by the time you are talking with the high 
school kids, it is a very different level of enthusiasm. And 
that isn't NASA's problem. I think that is a broader societal 
issue. Somehow we are squeezing that enthusiasm out of too many 
of our students. And we need not only to speak to those 
students who are going to make aerospace or science their 
career, but we need to speak to our whole population and keep 
them excited about science.
    A second comment I would make is the importance of honesty, 
of what I called scientific integrity. And this is why I pushed 
for it in the Augustine Committee report. The students that are 
in college or especially in grad school, especially the ones in 
grad school, they can really smell it if they feel like they 
are being told a story about the space program that doesn't 
stack up scientifically, if claims are being made that this or 
that mission will lead us to a cure for cancer when the 
connection just clearly isn't there, that really immediately 
translates into deep cynicism and skepticism about the program. 
And I have seen that too often.
    A third comment is that the program needs to be not only 
doing exciting things, it also needs to be seen to be at the 
cutting edge of what is happening. I had a tremendous graduate 
student in aerospace at a major university who worked with me 
for a year. He was one of the best students I've ever had--
really sharp. I mean, did stuff that I didn't expect him to do, 
did stuff that showed that he would come in the next week and 
show me why what I was doing was wrong. It was just terrific.
    And he didn't want to go work for NASA. He wanted to go 
work with one of the space startups. And my sense from talking 
to him was that he felt like NASA had become kind of a 
dinosaur. And this left me disheartened and feeling sad for my 
country.
    I am glad the startups are there, but, by God, we need a 
NASA that also makes students feel that way about it. And the 
idea that our best and brightest would be ruling out NASA 
because it is not exciting enough, there is something deeply 
wrong in that. That is just an anecdote, but for me, it was a 
powerful one.
    I have hope in that respect because in the Augustine 
Committee, we rolled up our sleeves and worked very closely 
with NASA engineers and NASA managers. And because I know that 
there has been at times a difficult relationship, and some of 
that has been referenced in this hearing today, I would like to 
just say for the record, if I may, that so many of those people 
are the absolute best in the world. And they are deeply 
dedicated.
    So there ought to be--I mean, there is at NASA not only a 
reservoir of deep knowledge and dedication, the best in the 
world, but also deep motivation to make this happen. That is 
why they are there. So I really hope it is going to be 
possible, moving forward, for there to be a cooperative 
environment in which all sides work together and roll up their 
sleeves to achieve this major national objective. And I think 
students will see that.
    Senator Boozman [presiding]. Thank you very much. I think 
that is very well said, and I really believe with all of my 
heart that we will see that happen.
    We appreciate you all being here so much. This has been a 
very good hearing, very informative, very helpful. And we look 
forward to working with you in the future.
    On behalf of our chairman, the meeting is adjourned.
    [Whereupon, at 12:26 p.m., the hearing was adjourned.]
                            A P P E N D I X

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    Next week is the 50th anniversary of President John F. Kennedy's 
historic address before a special joint session of Congress. In that 
address, the president famously challenged the Nation to send a man to 
the moon.
    While best remembered for its ``Moon Challenge'', the address also 
offered a vision for space exploration. Fifty years later, this vision 
has paid off in ways that neither he, nor the nation, could have 
fathomed at the time.
    Yes, we've sent hundreds of people to space. And yes, we've erected 
a national laboratory 200 miles above the Earth. We've even begun to 
unravel the mysteries of the universe by deploying the Hubble space 
telescope.
    But America's space exploration has meant much more than just going 
to space. The technology we've developed to get there has led to new 
innovations, new breakthroughs and new discoveries. And this has helped 
make America prosperous, inspired future generations of scientists and 
engineers, and boosted our economy.
    The Space Shuttle Program alone has generated more than 100 
technology spinoffs, including miniaturized heart pumps, laboratory 
instruments that allow faster blood analysis, hand-held devices that 
warn pilots of dangerous or deteriorating cabin pressure, and 
prosthetic limbs that are lighter and stronger.
    The list goes on and on--and that's just technologies derived from 
the Space Shuttle Program. Our space exploration has led to countless 
discoveries which save and improve lives here on Earth. For all those 
reasons, and more, it is critical that we maintain our space 
leadership. That's what members of this Committee have fought to do.
    Last year, we drafted and passed legislation that laid out a 
carefully considered bipartisan vision of the best path forward for 
NASA. It was a vision that enabled ambitious investments in science, 
aeronautics, education and human space flight exploration, while also 
recognizing current budgetary constraints. It laid out a new way for 
NASA.
    More than seven months after President Obama signed this bill into 
law, I am concerned NASA is not moving forward with implementing it 
with the urgency it requires. I'm worried that NASA's inaction and 
indecision in making this transition could hurt America's space 
leadership--something that would cost us billions of dollars and years 
to repair.
    It is for this reason that I'm prepared to step up the Committee's 
oversight today.
    This morning I, along with members of this Committee, sent a letter 
to Administrator Bolden. The letter outlines steps NASA should to take 
to help this Committee determine whether it is fully implementing the 
law. As I've said before, implementation of the law is a priority for 
me, and for this Committee. We simply can't afford to get it wrong.
    I look forward to hearing more from our witnesses today about the 
impact of space investments on our economy, national security, 
technological innovation and global competitiveness. And I look forward 
to another 50 years of U.S. space leadership.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                      Christopher F. Chyba, Ph.D.
    Question 1. Dr. Chyba, as a member of the Augustine Human Space 
Flight Plans Review Committee, how would you assess the progress made 
in the Nation's exploration policy and specifically its human space 
flight policy since the Committee completed its report?
    Answer. Much of the political response within Washington, D.C. 
represents good progress. The Obama Administration chose the flexible 
path from among the options presented to it by the Human Space Flight 
Plans Review Committee, and this was the approach that scored highest 
according to the twelve metrics our Committee used to rank the 
different options. This included, contrary to the Constellation 
Program's unbudgeted plan to terminate the International Space Station 
(ISS) in early 2016, continuing that program out to 2020 and probably 
beyond. Had that decision not been reversed, the United States would 
truly have been on a path to terminate human spaceflight in the middle 
of this decade. The Administration also endorsed commercial crew, 
consistent with our Committee's vision of the commercial sector 
``filling in'' behind NASA as NASA focused on the forefront of 
exploration beyond Low-Earth Orbit (LEO). Finally, and also consistent 
with our report, the Administration emphasized investing in advanced 
technology that could enable future exploration.
    Then, in its 2010 Authorization Act, the Congress broadly endorsed 
a flexible-path approach to future exploration, it endorsed the ISS 
extension, and it endorsed commercial crew. Congress also instructed 
NASA to build a heavy-lift rocket, relying as much as possible on 
Shuttle and Constellation designs. This is consistent with the 
Committee's vision of NASA focusing on the most demanding aspects of 
exploration beyond LEO.
    Where progress has not been made, vis-a-vis the Committee report, 
is with respect to budget. As I discussed in my testimony, the 
Committee emphasized that NASA has not been able to afford to 
simultaneously fly missions and develop and build a new human 
spaceflight architecture since the 1960s--and the human spaceflight 
budget, in real dollars, was double in the 1960s what it is today. Even 
with Shuttle termination, the United States will continue to pay for 
astronauts to fly to the ISS, and of course continue to bear costs of 
ISS operation. The Committee concluded that in order to continue to fly 
to the ISS while also developing the systems needed to go beyond LEO, 
NASA's human spaceflight budget would need to be augmented by something 
in the neighborhood of $3 billion per year.
    The Obama Administration did not ask for this augmentation, but 
instead chose to emphasize commercial space and technology development 
as a less expensive path that could help enable future exploration 
beyond LEO. In contrast, the 2010 Authorization Act instructed NASA to 
have operational capability of the core elements of a heavy-lift 
vehicle by the end of 2016. As I said in response to a question during 
the hearing, it's unclear to me whether we will be able to do all this. 
If we are going to design and build new heavy lift under severe budget 
constraints, I support the creation of a Shuttle-derived vehicle (and 
in particular, what was sometimes called ``Direct''), even while 
recognizing that this approach is likely to have higher recurring costs 
down the road. Designing and building heavy lift under the present NASA 
budget, and to any particular deadline, represents a great challenge.

    Question 2. This Committee and the Congress developed what was, in 
effect, a response to the Augustine report in the form of the 2010 NASA 
Authorization Act. That Act, as you know, represented a carefully 
constructed compromise approach between those who wanted to simply 
continue the Constellation program and those who essentially wanted 
NASA out of the human spaceflight business for the foreseeable future, 
at least in accessing low-Earth orbit. As you have heard in Committee 
Members' opening statements, there is considerable unhappiness with the 
seemingly sluggish response of NASA and the Administration to implement 
the requirements of that Act, and special concern at statements that 
suggest further ``study'' is required. Do you believe any additional 
``study'' is really necessary? What is there that has yet to be studied 
by NASA in your view in the way of potential launch vehicle 
configurations and technologies or other matters prior to establishing 
a path forward for U.S. human space flight?
    Answer. My response to Question 1 provides the context for my 
response to this second question. It will likely prove very challenging 
to develop a heavy-lift vehicle under the current budget on a 
prescribed schedule while simultaneously conducting astronaut 
operations and supporting the development of commercial spaceflight.
    In response to a question at the hearing, I noted something that I 
certainly hope will receive further study. The Subcommittee on Science 
and Space had just been given a commercial market assessment from NASA 
that was requested in the 2010 authorization bill. There is a one-page 
appendix, Appendix B, in that market assessment that it might prove 
very useful to examine in detail. In that appendix, NASA does a cost 
evaluation of the Space X Falcon 9 spacecraft. NASA costs out how 
expensive it would have been for NASA to have built that rocket. And 
with two different assumptions, they get an answer of $1.7 billion at 
the low end and $4 billion at the high end. They also state that they 
examined and confirmed SpaceX's costing of it, and it cost SpaceX $400 
million.
    We should understand if this conclusion is correct, and if so why 
would it have been between 4 and 10 times more expensive for NASA to 
develop the Falcon 9 than was the case for Space X. This is all the 
more important if one of the issues facing NASA right now is how to 
develop the heavy launch vehicle within the budget profile and timeline 
that the committee has given it.

    Question 3. Another key issue of interest and concern is the role 
of technology development in ensuring safe, efficient, and supportable 
space exploration. That also has implications for the transference of 
new technologies to the private sector. In your view, is that 
technology development best done with open-ended or little mission 
focus, or is it best done in the context of meeting specific capability 
requirements (i.e., tying that development to say exploration mission 
needs for fuel transfer or other specific needs)? Is there a balancing 
point between these approaches to technology development?
    Answer. It seems likely that a balance will be required. Some new 
technologies are potential game-changers, or at least game-evolvers, 
almost whatever approach the United States takes to going beyond LEO. 
Fuel depots (which come in several varieties of increasing ambition and 
capability) may be the premier example of such a technology. Moreover, 
their development and utilization will help establish a demand-pull for 
commercial spaceflight, which is in itself likely to be an important 
component of a successful human spaceflight program. At the same time, 
there are certain technologies that are clearly specific to particular 
mission plans. An important example is that we currently do not know 
how to protect astronauts sufficiently against radiation during the 
long-duration missions that would be needed for a human mission to Mars 
and back.\1\ This is currently one of the biggest challenges to such a 
mission. But were we to decide, for example, that a human mission to 
Mars was either not on our future agenda at all or else many decades in 
the future, the technologies that would be explored and developed to 
address this problem could be put aside for the time being. Undoubtedly 
there are many other such examples.
---------------------------------------------------------------------------
    \1\ Norman R. Augustine, Wanda M. Austin, Christopher Chyba, 
Charles F. Kennel, Bohdan I. Bejmuk, Edward F. Crawley, Lester L. 
Lyles, Leroy Chiao, Jeff Greason, and Sally K. Ride, Seeking a Human 
Spaceflight Program Worthy of a Great Nation, October 2009, p. 100.
---------------------------------------------------------------------------
                                 ______
                                 
    Response to Written Question Submitted by Hon. John Boozman to 
                      Christopher F. Chyba, Ph.D.
    Question. What do you believe are the areas in space exploration 
that are best undertaken by cooperation, as opposed to competition, 
among the space faring nations of the world?
    Answer. In both the scientific exploration of the solar system 
using robotic spacecraft, and in the human spaceflight program, I 
believe that we will be best served by robust efforts to increase 
cooperation with other spacefaring nations. We have a model in the 
International Space Station for how to manage such cooperation. Of 
course there are national security concerns that must always be 
evaluated, and which may place specific limitations on certain aspects 
of cooperation. But in general, human spaceflight--especially 
spaceflight beyond Low Earth Orbit (LEO)--is so expensive that 
cooperation would be a wise way forward. While competition drove the 
Apollo program to the Moon, I do not believe that this provides a model 
for future human exploration beyond LEO that is likely to succeed or 
prove sustainable.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                        Frank L. Culbertson, Jr.
    Question 1. What do you believe are the most significant challenges 
facing the country and our international partners in maintaining and 
servicing the space station?
    Answer. NASA's technical experts have looked carefully at all 
contingencies and recognize that in operating the International Space 
Station, there are risks such as a micrometeroid hit, collision with 
space debris, or a failure of the regenerative Environmental Control 
and Life Support System (ECLSS) which would require the ISS to be 
depopulated. NASA and its international and commercial partners are 
working hand-in-hand to ensure that we minimize these risks as best as 
possible.

    Question 2. Since this hearing is focusing on the global space 
economy and the contribution of space to meeting national needs, what 
do you believe are the most important aspects of our space program in 
helping to meet critical national needs and priorities?
    Answer. As I indicated in my formal testimony to the committee, our 
national space program provides outsized benefits to our nation, 
compared to what we invest in NASA. The conduct of our space program 
enhances American ``soft power''--the ability of the United States and 
our partners to expand our influence and capabilities because of the 
attraction of our values, goals, and technological leadership. The 
space program helps spur economic growth through its employment of 
hundreds of thousands of skilled high technology workers, its positive 
contributions to our balance of trade, and through the development of 
spinoff technologies that lead to significant benefits to society in 
the areas of health and medicine, transportation, public safety, 
consumer goods, environmental and agricultural resources, computer 
technology and industrial productivity. When we make the next great 
leaps in space, we will be able to incorporate the vast resources of 
the inner solar system into our economic sphere. In this regard, the 
International Space Station is an ideal platform for conducting 
valuable scientific research and for developing and simulating the 
operations, technologies, and techniques for executing more ambitious 
and lengthy missions to the Moon, Mars, and other destinations. 
Finally, through the space program we continue to inspire the next 
generation of explorers, scientists and investors, and make fundamental 
advances in knowledge about our planet, the solar system and the 
universe. Great nations do great things, and the space program is one 
of America's most noble and productive pursuits.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                        Elliot Holokauahi Pulham
    Question 1. What do you believe are the Nation's most significant 
short-term and long-term challenges with respect to maintaining 
leadership in space?
    Answer. Thank you for the opportunity to address further questions 
on national imperatives in space. There are many short-term and long-
term challenges that the United States faces at this critical time in 
its national space endeavors. In the short term we face several 
problems related to the drawdown of U.S. space capabilities as a result 
of the poorly planned retirement of the U.S. Space Shuttle. The largest 
and most urgent challenge has to do with the loss of thousands and 
thousands of highly skilled workers who have dedicated their careers to 
the advancement of America's space goals and objectives.
    Due to exceedingly poor planning on the part of NASA, these highly 
trained, well educated and loyal workers are being laid off at an 
alarming pace, and with no apparent concern on the part of their 
government for their well-being, their livelihood, the sacrifices they 
have made for their country, or any prospect that the U.S. space 
enterprise will wish to retain their unique skills. Many of these 
highly educated and very valuable workers have been alienated, and, 
indeed, pushed to the point of desperation. Despite their love of 
country and love of what they do it is highly unlikely that the best 
and brightest of these Americans will trust the space enterprise 
adequately to return to the workforce even if the opportunity to do so 
presents itself in the future. It is absolutely imperative the United 
States embark on a course of action to restore its leadership in the 
global space community. The men and women we would rely upon for this 
task simply will no longer be there.
    Further, the very act of launching humans into space is no longer 
within the capabilities of NASA. For the country to have invested an 
estimated $100 billion building and operating the International Space 
Station (ISS) to which it no longer has sovereign access is simply 
unbelievable. When NASA announced its plans to depend upon Russian 
vehicles to service the ISS I was shocked at the space agency's 
apparent lack of understanding of the situation and the vulnerabilities 
this plan introduced. I predicted a catastrophic loss of control over 
our ability to carry out our own human spaceflight programs. Sometimes, 
I hate it when I am right, as you all know, with the recent failed 
Russian Progress mission, the ability of Russia-upon whom now we are 
totally dependent-to launch humans and cargo to the ISS is in grave 
peril. For the long-term, the picture is also bleak with regards to our 
leadership in space, however, given leadership, financial resources, 
and political resolve, I believe that we can recover our long-term 
prospects. Clearly, NASA has painted itself into a corner from which 
there is no quick or inexpensive escape. Commercial launch services 
providers are making tremendous progress in preparing to assume 
responsibility for routine access to and from low Earth orbit. To some 
extent this work could be accelerated with additional funding. However, 
funding alone will not address all the challenges to replacing NASA's 
inherent spaceflight capabilities with commercial ones. Further, when 
we consider the NASA mission to explore the universe, we are clearly 
talking about space transportation beyond Low Earth Orbit. Considering 
the current tug-of-war among NASA, the Congress, the White House, and 
other interested parties, America's future as a heavy lift launch 
provider and as a nation of deep space human explorers is very much at 
risk.

    Question 2. What are industrial and market benefits of U.S. 
leadership in space? What is at risk if that leadership is lost?
    Answer. As you know, there are tremendous industrial and market 
benefits associated with U.S. leadership in space. For the past 50 
years space has served as a fundamental economic engine propelling the 
United States forward by creating new technologies, which in turn lead 
to entirely new industries, which in turn lead to outstanding jobs and 
careers for people and to fundamentally sound business opportunities 
for our economy. The period of time in which this economic engine was 
operating at its highest potential was that period of time leading up 
to the Apollo program, when innovation and invention were absolutely 
required in order to succeed with the Apollo mission. As a result this 
Nation challenged itself to do the difficult things that had never been 
done before, to engage our best and brightest minds in ways that they 
had not been engaged before, to challenge our society as a whole to 
envision itself as greater than it was, and to dream of a better 
future. We succeeded. Sadly, however, we have not pursued our space 
programs with such determination since the Apollo program was 
terminated. Being stuck in Low Earth Orbit has meant that we have 
shifted the transmission on the economic engine that is space from high 
gear, overdrive, to compound low range-some would say idle. The 
benefits of being a leader in space go far beyond the economic and 
technical benefits. There is a significant diplomatic advantage to 
being the only nation capable of putting humans on the moon. There is a 
significant advantage in recruiting the best and brightest young minds 
from around the world when you have a vibrant space program in place. A 
there is a significant advantage that accrues to the very spirit of the 
country when we are pursuing daring adventures and difficult goals. 
These advantages have been lost to us as we have maintained a budget 
driven space program that has been stuck in low Earth orbit with no 
place to go, and now seems incapable of even reaching low Earth orbit.

    Question 3. Your most recent edition of The Space Report describes 
an enormous jump of bachelor's equivalent graduates in China. As a 
matter of fact, in 2006 China graduated more bachelor's equivalent 
students than the United States, 5 of the largest European Union 
Nations (France, Germany, Italy, Spain, and the U.K.), South Korea, and 
Japan, combined. Do you have any specific information that would 
suggest what is driving this large increase?
    Answer. To a significant degree, the large increases in the 
graduation of engineering students in China, India, Japan and other 
nations can be attributed to the excitement that the people of those 
nations feel about the grand and daring pursuits of their nations in 
space. This is, quite simply, the ``Apollo effect'' that other nations 
have long coveted and which we, the United States, seem to have 
forgotten. There is immense pride in these nations associated with 
their accomplishments in space. This national sense of purpose inspires 
greater and greater numbers of students to enroll in the difficult 
courses associated with science, technology, engineering, and 
mathematics-the STEM disciplines. And just as American aerospace 
engineers diversified into information technology, high-technology 
consumer products and other challenging and rewarding fields, engineers 
in countries like China are being inspired and motivated by their 
national space programs, and when not contributing to those find 
themselves engineering rail lines for the fastest trains on the planet, 
complex hydraulic systems for the largest dams and hydroelectric 
projects on the planet, etc. I should add all those great things that 
the United States used to be known for doing are now being accomplished 
by other people, in other places because of a national vision and 
inspiration that has gone missing in our own country.

    Question 4. Your statement provides a number of excellent examples 
of how U.S. national investments in space have proven to be ``high-
impact investments of tremendous national benefit,'' and that ``the 
U.S. aerospace industry . . . by some estimates accounted for 50 
percent of the new wealth generated in America between 1962 and 2002.'' 
You go on to say that the aerospace industry ``built its muscle'' on 
several programs you list, all of which are human spaceflight programs. 
Is there something unique about human spaceflight programs that lead to 
the development of more ``industrial muscle'' than other kinds of space 
programs?
    Answer. Yes, there is something unique about human spaceflight 
programs that lead to the development of more industrial muscle than 
other kinds of space programs. Robotic programs are fine and have their 
place; indeed, robots are better suited to many space missions then are 
humans. But we must ask ourselves whether, if Sir Edmund Hillary had 
elected to catapult a robot to the top of Mount Everest, would we have 
considered the mountain conquered, would we have considered it a human 
achievement, or would we simply not have cared? Humans are essential to 
the space exploration endeavor because at the end of the day 
exploration is a human endeavor. And because humans are involved in 
this very dangerous enterprise, the level of engineering, development, 
design, test, innovation, invention, test and retest, and all the other 
things that result in capabilities that never existed before must be 
part of the process. There is no other way to drive this level of 
excellence other than with humans in the loop. And so industry is 
challenged in ways it has never been challenged before, and in ways it 
would not be challenged were humans not involved.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Boozman to 
                        Elliot Holokauahi Pulham
    Question 1. From your organization's review over the years of 
technology transfer, or spinoffs, from space-related development 
activity, what is the most effective mechanism for ensuring the maximum 
dissemination of technology for industrial or commercial applications?
    Answer. The first thing that is required is that advanced 
technologies in are being developed, which requires a challenging 
mission and technical capabilities that are not currently in inventory. 
Assuming we have a robust and productive national space program, which 
is, of course, not a ``slam dunk'' assumption at this point in time, 
the best way to disseminate this technology is by having the maximum 
number of people engaged in the enterprise. Those who are inventing and 
developing the new technologies understand those technologies the best, 
and are uniquely positioned to see additional uses for the 
technologies. I often think of an Apollo engineer, Eddie Sturman, who 
had the simple job of inventing the most efficient valves possible for 
the Saturn V launch vehicle. On the face of it, not a very ``sexy'' 
assignment. Yet Eddie Sturman, because of Apollo, had the chance to 
design control valves that are so much lighter, stronger, faster, 
higher-performing, and inexpensive, they have quite revolutionized the 
state-of-the-art in valves. . .and valves are in everything! The 
result, a company called Sturman Industries, today co-produces some of 
the most fuel efficient and powerful automotive engines in the world. 
The same factory produces valves that have led to the introduction of 
draft-beer-at-home packaging solutions for the beverage industry. And 
you couldn't have just thought this up. You had to be there, like Eddie 
Sturman was there. I also think about the inventor of the cochlear 
implant device, who took the technology and software developed for the 
space shuttle program and adapted it so that a completely deaf person 
can hear clearly again. The invention was made possible because a 
person was involved in a NASA program who understood the possibilities 
of the technology in front of them and took that technology to the next 
level--enabling thousands of people around the world to hear normally. 
So, on the one hand, I have little doubt that technology transfer 
offices, NASA publications like ``Spinoff,'' public awareness programs 
like the Space Foundation's very own Space Technology Hall of Fame, and 
other dedicated efforts indeed help distribute these technologies and 
build new industries. On the other hand I fundamentally believe that 
the secret to pushing new technologies out into the marketplace and out 
into the world is to have a vibrant space program in which as many 
people as possible are involved

    Question 2. Mr. Pulham, the most recent report from your 
organization states that the 2010 global space economy is estimated to 
be $276 billion dollars. What do you believe are the most significant 
space-based markets emerging today?
    Answer. In terms of known markets, there's no question that 
commercial satellite utilization is both the largest and fastest 
growing space-based market in the world today. More and more, 
satellites form the essential infrastructure upon which our society 
operates. I also believe that the satellite marketplace can be greatly 
energized by intelligent government procurement decisions. It is no 
mystery to many commercial companies around the world know how to 
design, develop, test, manufacture, launch, and operate the most 
complex satellites possible. This is where I think the government can 
assist this market most, and that is by not competing with commercial 
companies. Certainly there are satellites that are required by the 
United States for national security and other purposes that must be 
discreetly procured with a high degree of specialization. However, the 
vast majority of U.S. government requirements for satellite capability 
can be satisfied by commercial satellite manufacturers and operators. I 
often reflect upon the NPOESS satellite program and how poor management 
and unknown requirements can negatively impact a promising satellite 
system, forcing it to come completely off the rails, resulting in 
failure that most of the involved aerospace companies could have 
managed very successfully had it not been for the way that government 
drove, or in some cases failed to drive, critical path decisions. I 
have often said that if the United States government had simply put a 
request for proposal out to industry asking for an off-the-shelf 
procurement of satellites to perform the NPOESS mission, a robust and 
highly capable fleet of satellites would have been ready for the 
government in a short period of time, with a high degree of 
reliability, based upon proven and well understood satellite platforms, 
delivered on time and under budget, and ready for efficient operation 
by a commercial satellite operating company. If the government would 
simply buy commercial to the greatest degree possible, and if the 
government would allow U.S. satellite manufacturing companies to 
compete on a level playing field with satellite manufacturers from 
Europe and Asia, these two simple changes alone would take our industry 
a great distance toward better economic health, international 
competitiveness, and long-term resilience and profitability.
    The second largest market, at least as far as U.S. companies are 
concerned, is the United States national security space community--
which includes surveillance, reconnaissance, position-navigation-
timing, signals and other forms of intelligence gathering, military 
remote sensing, space weather and many other important capabilities. 
While not an emerging-market per se, this segment of the market 
represents a huge opportunity for both the government and the aerospace 
contracting community. Clearly these systems require exquisite 
technical capabilities that are not commonly found on non-military 
platforms; on the other hand it is seldom recognized that commercial 
satellite manufacturing companies have developed advanced technologies 
for their commercial customers that could be economically adapted to 
serve any variety of national security missions. National security 
space payloads have become so expensive and so time-consuming to 
develop that not only is ``failure not an option'' but, the career 
military and civil service personnel in charge of these systems have 
become so risk-averse that rapid development, on-time delivery, 
innovative concepts of operations, and other desirable attributes are 
largely engineered out of the system. I believe that while there are 
always going to be satellite systems for national security that must be 
exquisite single point solutions, I also believe that many of the 
systems required by either the Air Force, the National Reconnaissance 
Office, Army, Navy, and other users could be much more cost effectively 
procured from the commercial satellite manufacturing industry. The 
savings that could result from this approach not only would contribute 
to a stronger and more robust commercial satellite manufacturing 
industry but the budget allocated to national security space programs 
could be stretched much farther and accomplish much more for our men 
and women in uniform than what we realize in the current paradigm.
    Finally, it must be said, that while transportation is a miniscule 
part of the overall global space economy, it nonetheless is the part of 
that economy that makes all the rest possible. I believe that advanced 
space transportation systems could open up markets and opportunities 
that, today, are completely invisible to us. At the current cost of 
putting a pound of payload into orbit, there are not a lot of 
commercial business cases for space that will close to the satisfaction 
of investors. However, there are many types of industries that would 
benefit from access to the space environment. These include 
pharmaceutical companies, materials and engineering companies, biotech 
and bioresearch companies, agricultural and other companies. Improving 
the state of the art in space transportation not only stands to make 
space utilization more affordable for civil, commercial and national 
security stakeholders, but will really open up the microgravity 
environment to benefit agribusiness, healthcare, pharmaceutical, 
entertainment and other industries in a manner that will benefit 
industries which at present have little to no space identity that is 
readily apparent to the public.

    Question 3. Your statement discusses the fact that only one of the 
twenty-five largest satellite communications companies in the world is 
based in the U.S. In addition, you state that roughly three quarters of 
all commercial satellites are manufactured outside of the United 
States. Has there been a trend over time that has led to this 
disparity? What do you believe is the leading ``driver'' of this 
dispersion of activity outside of the U.S.?
    Answer. Senator, there is no question whatsoever that the principal 
driver in this migration of satellite manufacturing and operating 
capability has been driven by draconian United States export 
regulations, most specifically ITAR. One may debate from today until 
the cows come home what triggered the inexplicable clampdown in the 
export of routine, widely available space technology. At this point in 
the game assigning blame is not productive, although there is plenty of 
blame to go around. What would be productive is the return of U.S. 
space technology export policy to a position somewhat approximating 
rational behavior. Before the imposition of these draconian export 
controls, the U.S. manufactured the vast majority of commercial 
telecommunications satellites. Since that time it has become so 
difficult to export any satellite technology, even the most innocuous 
and widely available on foreign markets, that satellite owners and 
operators have simply seen fit to do business with other manufacturers 
and other nations who behave more rationally. Similarly with satellite 
operations, which have changed dramatically as companies like INTELSAT 
have changed their structure from international nongovernmental 
organizations to private for-profit companies, there is no longer any 
incentive, and indeed there is great risk, to operating in the United 
States. These companies have contacts, customers, and employees all 
over the world. All of these aspects of their business are placed in 
great peril if they choose to operate within the United States. The 
driver of this trend quite simply is us; we, have chosen to drive it 
out of the United States.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                              Frank Slazer
    Question 1. Many aerospace companies have expressed urgent concern 
about the lack of a NASA mission and direction. What in your view are 
the impacts to the industrial base if NASA continues to delay making 
real decisions with respect to building a heavy lift rocket and a crew 
capsule?
    Answer. As of the time of this response, NASA has made decisions 
regarding a crew capsule (Orion) and heavy lift system (Space Launch 
System), which are consistent with the position AIA has taken. AIA has 
urged the full implementation of the NASA Authorization Act of 2010.

    Question 2. I am interested in your thoughts about the impact to 
other aerospace industry customers from NASA's indecision, delay, or 
redirection. For instance, with the cancellation of Constellation and 
the retirement of the Space Shuttle, it's been reported that the Navy 
recently experienced increases in the price of the Trident missiles, 
from $10.7 million apiece to $19.2 million apiece, or an 85 percent 
increase. Are there other ``surprises'' of this sort in store for other 
customers?
    Answer. Delays in proceeding with new exploration program 
investments for any reason jeopardize the continuity of our Nation's 
space exploration program, and risks the loss of crucial skills needed 
to maintain national space exploration capabilities. Our nation has 
developed a knowledge base of space systems development that cannot be 
put on the shelf indefinitely. It is like a muscle--if it is not used, 
it will atrophy and could be extremely difficult to reconstitute in the 
future. Worst of all, failure to keep a certain level of activity 
underway risks disillusioning the next generation of scientists and 
engineers who will be forced to move on to other technology sectors. 
This loss would be a tragedy that could mean the new generation loses 
its opportunity to apprentice with those who designed and built the 
Space Shuttle and International Space Station forgoing the opportunity 
to transition the lessons learned to the next generation.
    With respect to the collateral damage [the] civil space program 
decisions have had on the national security industrial base, while AIA 
is not aware of any imminent cost growth attributable to the 
Constellation termination decision, it should be noted that similar 
impacts have happened to NASA. As an example, when the U.S. Air Force 
made the decision to move all launches to EELV, the Delta II rocket was 
spelled a death knell due to the diminished market, this despite the 
vehicle being used for many NASA science missions over the years. This 
type of unintended consequences is the reason AIA has long advocated a 
National Space Council in the executive branch, which could bring 
together relevant Executive Branch entities to fully apprise the 
interests of all space stakeholders when making significant program 
decisions.

    Question 3. Are there changes in procurement processes used in the 
space program that the Congress can initiate to enhance our Nation's 
productivity, effectiveness, and competitiveness?
    Answer. Two recommendations immediately come to mind--both of which 
are institutionally difficult for Congress to agree to. The first would 
be Multiyear Appropriations for complex, long-term space program 
investments. This has been done by some of our international space 
partners, and it would greatly strengthen NASA's ability to manage its 
programs--especially those involving one of a kind developments, which 
are prone to schedule challenges despite the best efforts of program 
management. Not having a stable, predictable funding profile invariably 
makes it more difficult for program managers to succeed and prioritize 
their resource investments problems that cascade down into the 
industrial base. The second change would be to recognize that flat 
funding profiles drag out development programs and cause higher 
development costs. For optimal execution, development programs usually 
need to follow a funding profile with higher expenditures in the middle 
of the process--even though that could cause NASA's budget to go up for 
a period of time, the net result, would be lower development program 
costs overall.

    Question 4. In your view, are there shortages of engineers and 
skilled professionals that are currently impacting the aerospace 
industry? If so, what are the greatest challenges the aerospace 
industry faces in retaining experienced technicians and engineers?
    Answer. This question has essentially been addressed by my earlier 
answers--proving program funding stability, allowing continuity for 
seasoned professionals to pass along the lessons learned, and having a 
long term commitment to an exploration program will encourage students 
to pursue careers in those fields which are most needed, and also 
facilitate retention.
                                 ______
                                 
    Response to Written Question Submitted by Hon. John Boozman to 
                              Frank Slazer
    Question. What do you believe are the areas in space exploration 
that are best undertaken by cooperation, as opposed to competition, 
among the space faring nations of the world?
    Answer. Historically, successful human space programs have involved 
internationals either cooperatively as with the Space Shuttle and ISS 
or competitively as with Apollo. I see the ISS as a great example of 
how cooperation with nations that share similar objectives as the 
United States can be a real benefit when pursuing space exploration 
objectives that are technically challenging and expensive. It is 
important that the nations involved have shared interests and 
commitment to make this work over the long run.
    Specific areas for cooperation will depend on the specific partners 
and their respective areas of expertise; for example, Italy has a long 
tradition of demonstrated performance in providing pressurized 
structures for crewed applications, and the same is true for Canada 
with tele-robotics. How international partners could best fit into 
exploration architecture will depend on the exploration objectives and 
relative interest and financial commitment of the respective partners. 
We ought not to enter into partnerships where the fruits of our 
national investments need to be given away for success, nor should we 
avoid undertaking development efforts where there are clear benefits to 
our nation, even if they are costly. Nevertheless, international 
partnerships are one of the best ways to assure long term program 
success.

                                  <all>

</pre></body></html>
